<html>
<title> - [H.A.S.C. No. 113-48] THE SECURITY SITUATION IN THE SYRIAN ARAB REPUBLIC</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 

                         [H.A.S.C. No. 113-48]

                THE SECURITY SITUATION IN THE 
               SYRIAN ARAB REPUBLIC--IMPLICATIONS
                  FOR U.S. NATIONAL SECURITY AND 
                        U.S. POLICY OPTIONS

                             __________

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                             JULY 17, 2013

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________

                    U.S. GOVERNMENT PRINTING OFFICE
82-463                        WASHINGTON : 2013
______________________________________________________________________________For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>  





                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, July 17, 2013, The Security Situation in the Syrian 
  Arab Republic--Implications for U.S. National Security and U.S. 
  Policy Options.................................................     1

Appendix:

Wednesday, July 17, 2013.........................................    37
                              ----------                              

                        WEDNESDAY, JULY 17, 2013
 THE SECURITY SITUATION IN THE SYRIAN ARAB REPUBLIC--IMPLICATIONS FOR 
             U.S. NATIONAL SECURITY AND U.S. POLICY OPTIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Abrams, Elliott, Senior Fellow for Middle Eastern Studies, 
  Council on Foreign Relations...................................     3
Hof, Ambassador Frederic C., Senior Fellow, Rafik Hariri Center 
  for the Middle East, Atlantic Council..........................     5
Yacoubian, Mona, Senior Advisor, Middle East, The Stimson Center.     7

                                APPENDIX

Prepared Statements:

    Abrams, Elliott..............................................    45
    Hof, Ambassador Frederic C...................................    53
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Smith, Hon. Adam.............................................    43
    Yacoubian, Mona..............................................    67

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    83

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................    93
    Mr. Langevin.................................................    87
 THE SECURITY SITUATION IN THE SYRIAN ARAB REPUBLIC--IMPLICATIONS FOR 
             U.S. NATIONAL SECURITY AND U.S. POLICY OPTIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 17, 2013.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. The House Armed Services 
Committee meets to receive testimony from independent experts 
on the security situation in Syria. Today we have with us 
Ambassador Fred Hof, Mr. Elliott Abrams, Ms. Mona Yacoubian, 
and they are going to provide their insights into the conflict 
in Syria. Thank you all for joining us here today.
    We are now in the third year of the conflict in Syria. The 
United States estimates that at least 93,000 Syrians have died. 
Additionally, the Obama administration has finally confirmed 
the Intelligence Community's assessment that the Assad regime 
has used chemical weapons, including the nerve agent sarin, 
against the opposition multiple times in the last year. With 
the now verified use of chemical weapons, a stated red line by 
the Obama administration, and a mounting humanitarian crisis, 
increased regional instability, spreading sectarian violence, 
the trajectory of the conflict in Syria appears to be heading 
in the wrong direction in an already unstable region, 
threatening U.S. interests. Moreover, a recent string of 
military gains by the Assad regime, supported by Iran and 
Hezbollah, has fueled the perception that Assad is winning. 
Meanwhile, the United States has a largely incoherent and 
disjointed policy to address the situation in Syria.
    Whether one is in favor of or rejects the idea of U.S. 
military intervention in this crisis, it remains critically 
important that this committee continues to gain a comprehensive 
understanding of the military options that may be available to 
address the conflict in Syria, to include the objectives, 
limitations, and risks of each. Because the U.S. has vital 
national security interests at stake and our warfighters might 
once again be tasked with a complicated mission in a time of 
fiscal austerity, our panel of experts will provide further 
insight into the U.S. policy options, and I look forward to 
your testimony.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate our 
panelists being here. I look forward to their testimony and any 
ideas they have on how to deal with what is an enormously 
complex series of challenges. I think the chairman laid out 
correctly how important the region is and how large the 
humanitarian crisis is right now in Syria. An increasingly 
ethno-sectarian civil war has led to deaths of nearly 100,000 
people. Millions more have been displaced or fled Syria. The 
Assad regime is brutal to its own people, not legitimate.
    We need a legitimate government in Syria, and I think we 
all agree on those points. The troubling thing is what do we do 
about it. And I think one of the most important policy shifts 
that we need to understand as a country is the limitations on 
what the U.S. can do. Our military cannot simply plop down 
anywhere in the world and fix a situation. Oftentimes it can 
make it worse and certainly comes at great cost in terms of 
lives and in terms of resources for the U.S., and my personal 
opinion is that Syria is one of those places we should be very, 
very careful about.
    I have not yet seen a plan that shows what our military can 
do to improve the situation. We do not have reliable partners 
in Syria that we can work with. It is a constantly changing, 
evolving, and difficult to assess situation. Sending arms into 
that does not strike me as a positive idea, and certainly, you 
know, military involvement on behalf of the U.S., I have not 
seen a plan that shows that that will improve the situation.
    Regrettably that leaves us with a diplomatic track. I mean, 
it is clear what we want. We want the Assad regime to step down 
and a reasonably stable government to replace it that has the 
support of the Syrian people, and that is easy to say, very 
difficult to achieve. We have important partners in the region, 
including Jordan and Israel. We should work as closely as 
possible with them to try and find a reasonable alternative, 
but this is going to be a difficult problem. I don't see a 
solution to it anytime soon. I believe the U.S. just needs to 
be careful not to make it worse and not to leap before we look.
    But I look forward to the testimony of the experts to give 
us any further ideas on how we should proceed with our policy, 
and I thank the chairman for holding this hearing.
    The Chairman. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    The Chairman. Each of you has a very impressive resume. I 
am not going to read it. But you have extensive knowledge on 
the subject that you are going to cover. We really appreciate 
you taking the time to be with us today. Let's start with Mr. 
Abrams.

 STATEMENT OF ELLIOTT ABRAMS, SENIOR FELLOW FOR MIDDLE EASTERN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Mr. Chairman and members of the 
committee, for this invitation. I will try to be brief. You 
have got my written testimony.
    The Chairman. All of your written testimonies will be 
inserted in the record without objection. Thank you.
    Mr. Abrams. Thank you. There is a humanitarian disaster in 
Syria, we all know that. Nearly 100,000 people dead, about a 
million refugees, perhaps a million one, and perhaps 4 million 
displaced persons, and we are addressing that through U.N. 
[United Nations] agencies and other bodies. The question is 
whether we need to do more, whether to support the rebels or 
even use military force. In my view, the answer to those 
questions is yes because otherwise what we face in Syria is an 
Iranian victory, an Iranian victory that would be a great blow 
to U.S. interests.
    The continuation of the conflict is itself a threat to U.S. 
interests and U.S. allies. There are more than half a million 
refugees in Jordan, which is a potential source of great 
instability there, and it is growing. I remember talking to the 
King and others when it was 100,000, 200,000, they feared it 
would be 250. Now the fear is of a million refugees. And as the 
conflict continues, more and more jihadis arrive in Syria, and 
we have to wonder about their role not just today but tomorrow, 
after the conflict, in Lebanon or in Jordan or on the Syrian-
Israeli border. But I think the worst effect would be our 
defeat by Iran, and that is exactly how it would be seen in the 
region and around the world. On one side Iran, Hezbollah, and 
Russia supporting Assad, on the other side supposedly the 
United States, the Europeans, and our Sunni Arab friends in the 
Gulf supporting the rebels, opposing Assad.
    Does it matter who wins? I think it does because around the 
world but especially in the region our friends and our enemies 
are going to judge our willpower, and they are going to judge 
our influence, and they are going to judge our power by the 
outcome of this conflict. Should we prevail and the Assad 
regime be replaced by a Sunni regime oriented towards Syria's 
Sunni neighbors like Jordan and Turkey, it is a huge defeat for 
Iran and Hezbollah and Russia. Such a defeat for Hezbollah, a 
terrorist group with global reach, is very much in our 
interests, but even more importantly the rise of Iranian power 
in the region would have been seen to be stopped if the Assad 
regime falls. That is hugely important. Syria is Iran's only 
Arab ally. It provides Iran with Mediterranean ports and a land 
bridge to Hezbollah and Lebanon and through Hezbollah, a border 
with Israel. That all changes if Assad falls.
    What happens if we decide this game is not worth playing 
and the war goes on until Assad more or less crushes the 
rebellion? First, many more refugees threatening the stability 
of Jordan and Lebanon. Iranian ascendancy, strengthening 
Hezbollah inside Lebanon and strengthening Iran throughout the 
Middle East. An emboldened Iran, seeing a lack of American 
desire to confront it is logically more likely to become more 
aggressive in Bahrain, watch out for the future of the 5th 
Fleet, in Saudi Arabia's eastern province, which is heavily 
Shi'a, and in its own nuclear program. Surely a display of a 
lack of American willpower in Syria is going to persuade many 
Iranian officials that we may say all options are on the table 
but in reality they are not.
    So what should we do to prevent an Iranian and Hezbollah 
victory? First, I do think we have waited too long to provide 
military help to the rebels, a view that in a sense I share 
with former Secretary of State Clinton and former Secretary of 
Defense Gates who over the past year before they left office 
favored that kind of aid, a position that the President 
rejected. I believe we should step up the flow of weaponry to 
prevent their defeat as the weaponry flows in from Russia 
basically to the Assad side.
    I know people say we have no side, there is just jihadis, 
and it is true that there are plenty of them there and more of 
them as time goes by. To me that is all the more reason to 
strengthen those on the rebel side who are Syrians and who are 
not jihadis, not only so that they win and win faster but so 
that they are more powerful when the conflict is over.
    I don't favor, secondly, a no-fly zone. I think that is a 
formula for a long-term and difficult commitment of American 
military resources. What I do favor is a one-time strike at 
Assad's air assets and air bases. If we eliminate or greatly 
weaken Assad's ability to use air power, we will significantly 
tilt the battlefield toward the rebels. We will do it 
militarily, psychologically, and politically. That seems to be 
the position if the news reports are right, and they have not 
been denied, that Secretary of State Kerry recently took.
    There is an objection that this strike is impractical, 
can't be done, too dangerous, air defenses of Syria 
impregnable. You know, my answer to that is, tell that to the 
Israelis who have been able to strike inside Syria three times 
that we know of. How is it possible that they can do it and we, 
with our stealth technology and with the 6th Fleet in the 
Mediterranean, we can't do it? I just, frankly, don't believe 
it.
    Mr. Smith said he hadn't seen a military plan. I think this 
committee should demand a military plan, secretly obviously, 
but if you haven't seen a military plan, it is because the 
military doesn't want to give you one. They should be forced to 
give you a sensible one, not with General Dempsey's 700 
sorties, frankly, but a serious one that looks at what the 
Israelis have done, and says here is what we can do.
    The second objection is we can't act without a Security 
Council resolution. You know, we went through this in the 
Balkans in 1995 and 1998, and President Clinton made I think 
what was the right decision in 1998 in Bosnia when he used 
American military power for national security and humanitarian 
reasons without a U.N. Security Council resolution. The 
question I would put is if for our national interests we need 
to do this, if that is the decision you reach, will you allow 
Vladimir Putin to stop you in the U.N. Security Council?
    This clock is not telling me my 5 minutes are up, but they 
must be just about up, so let me hope that I can address some 
of the questions that these comments give rise to, and thank 
you, Mr. Chairman, for inviting me and inviting me to be part 
of a panel that is as distinguished as Ms. Yacoubian and 
Ambassador Hof. Thanks.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Abrams can be found in the 
Appendix on page 45.]
    The Chairman. Mr. Ambassador.

 STATEMENT OF AMBASSADOR FREDERIC C. HOF, SENIOR FELLOW, RAFIK 
      HARIRI CENTER FOR THE MIDDLE EAST, ATLANTIC COUNCIL

    Mr. Hof. Mr. Chairman, Mr. Smith, members of the committee, 
thank you very much for inviting me today. I hope to be of some 
use to you in your deliberations. You have my statement, and I 
will follow the example of Elliott Abrams and just hit some of 
the highlights of mine.
    What are our national security interests in Syria?
    The Chairman. Mr. Ambassador----
    Mr. Hof. Yes?
    The Chairman. Could you speak directly into the microphone? 
We are having a little trouble hearing.
    Mr. Hof. Is that better?
    The Chairman. That is better.
    Mr. Hof. Okay. What are our national security interests in 
Syria? What is it we want to achieve? How should we go about 
trying to get what it is we want? President Obama has suggested 
that it is the effects of regime-inspired chaos on Syria's 
neighbors that engages, quote, the serious interests, unquote, 
of the U.S. in the Syrian crisis. Among these neighbors is a 
NATO [North Atlantic Treaty Organization] ally, Turkey; a close 
security partner, Jordan; a country whose independence and 
well-being we have always tried to support, Lebanon; and a 
country where many Americans have recently made the ultimate 
sacrifice, Iraq. All of these countries, some more than others, 
are being swamped by refugees and associated resource and 
security problems by the Assad regime's practice of hammering 
rebel-held populated areas with artillery, with aircraft, and 
occasionally even with Scud missiles.
    It is a terror campaign that makes no pretense of seeking 
military targets. The regime's objective is that of a 
terrorist, to persuade civilians through the application of 
random deadly violence to make decisions at the expense of 
one's enemy. Beyond the four countries being directly 
victimized by regime terror, Israel's interests are engaged by 
the spillover of violence into the Golan Heights and the threat 
to Jordan's security. Even Egypt, in the midst of its own chaos 
and turmoil, is providing a refuge to tens of thousands of 
Syrians.
    If our interest centers on allies and friends in the 
region, what are our objectives? Three--in my view, three come 
to mind. First would be the enhanced security and stability of 
regional allies and friends in the face of Syria's chaos and 
the Assad regime's tactics of mass terror; the second would be 
political transition in Syria away from the regime, including 
the removal from Syria of all Iran-related military elements, 
including Hezbollah and Al Qaeda affiliates; and, third, the 
replacement of the Assad regime with an inclusive national 
unity government, one committed internally to recovery, 
reconciliation, accountability, reform, and rule of law, one 
committed externally to regional peace and stability. Across 
the range of these objectives there would be a constant 
updating of contingency plans related to weapons of mass 
destruction.
    Now, as I said, the key problem affecting allies and 
friends is the regime's mass terror campaign against vulnerable 
populations. Ending it should be our top priority, and 
diplomacy is always the first weapon of choice. The U.N.'s 
Independent International Commission of Inquiry on Syria 
recently reported that the regime's tactics, quote, constitute 
crimes against humanity, war crimes, and gross violations of 
international human rights law, unquote. If we are not already 
doing so on an insistent, sustained basis, we should be urging 
Moscow to rein in its client. We should make it clear to Russia 
that if the terror campaign subverting our allies and friends 
does not stop, we will reserve the right to take steps we deem 
appropriate to secure our interests.
    To the extent we consider military options at all in 
connection with Syria, it should be, in my view, in the context 
of helping allies and friends secure themselves from the 
regime's murderous tactics. We would not under any 
circumstances want American boots on the ground in Syria. We 
would not wish to consider unmanned or manned aerial systems 
entering Syrian airspace, and unless and until we are persuaded 
that the peaceful diplomatic campaign has run its course 
unsuccessfully. Even then we would still have the option of 
watching the terror campaign proceed unabated while pouring 
more resources into Syria's neighbors so that they could better 
cope.
    We should keep in mind that no-fly zones would not address 
the biggest of the killers, artillery. We could not proceed 
with any kind of strike options without the full cooperation of 
Turkey, Jordan, and other key partners. Although U.N. 
authorization would not be possible, U.S. unilateralism is 
something to be avoided.
    As we pull out the stops diplomatically to stop the terror 
campaign, we should try to stabilize the situation on the 
ground by seeing to it that vetted rebel units in Syria get 
what they need in terms of military equipment, weaponry, and 
training, working through the opposition's Supreme Military 
Council. The regime has a well-established record of conducting 
massacres in places it can reach on the ground. Most weaponry 
for the mainstream opposition will not come from U.S. stocks, 
yet the U.S. should be in charge of the process of determining 
who gets what. Will all weapons shipments without fail get to 
the intended recipients? No. No more in Syria than they did in 
World War II when air-dropped into occupied France. The 
jihadists and the regime are already armed to the teeth. The 
Syrian nationalists are the ones who need the help. Their 
ability to defend territory and reverse the current momentum 
will have a direct and positive impact on refugee flows. If 
objectives and strategy are key components of foreign policy, 
they are life and death items when it comes to military 
operations. If American diplomacy cannot stop the terror 
campaign, the President will need options to consider. He may 
well decide to focus on supporting the neighbors through 
increased assistance. To the extent he looks at military 
operations, he will want in the context of objectives to define 
the mission as narrowly as possible: To destroy or 
significantly degrade the ability of the Assad regime to 
terrorize civilian populations with artillery, military 
aircraft, and missiles. He will be interested in methodologies 
that minimize U.S. and collateral casualties, knowing full well 
there are no such things as surgical strikes. He will want to 
assess carefully the likely reactions of key players, the 
regime, Iran, Hezbollah, and Russia. He will want buy-in from 
at least two of the neighbors, Turkey and Jordan. He will want 
to avoid the proverbial slippery slope.
    Syria's revolution is not, after all, America's to win or 
lose. Once the mission is accomplished and the mass terror 
campaign either ended or reduced significantly, the direct 
military role of the United States would be ended. If Iran, for 
example, elects to intervene massively in Syria, sending its 
army across Iraq, obviously new calculations in the White 
House, the Pentagon, and elsewhere will be set in motion.
    Finally, Mr. Chairman, there should be no illusion in any 
event that military intervention will necessarily be a silver 
bullet and unintended consequences will be ubiquitous 
regardless of what one does or fails to do. Yet those who try 
to shut down the debate by demanding ``tell me how it will 
end'' should apply the same standard to alternatives, 
especially that of passively watching developments unfold. In 
an era of diminishing defense resources brought about in part 
by sequestration and at a time when a tiny percentage of 
Americans bear the burden of defending this country, we should 
not be going out of our way to search for ways to apply 
military force in various parts of the globe. If we elect to 
act with kinetic lethality in Syria, the objective should be 
tied tightly to the situations our allies and friends find 
themselves in as a result of the Assad regime's survival 
tactics.
    The question is not one of the United States taking 
ownership of Syria's future. That future belongs to Syrians. 
Our main task is to decide what we want and how to go about 
getting it, keeping in mind that supporting allies and friends 
is where American national interests are surely engaged in the 
case of Syria.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Hof can be found in the 
Appendix on page 53.]
    The Chairman. Ms. Yacoubian.

 STATEMENT OF MONA YACOUBIAN, SENIOR ADVISOR, MIDDLE EAST, THE 
                         STIMSON CENTER

    Ms. Yacoubian. Thank you, Mr. Chairman and members of the 
committee, for inviting me to speak this morning. I very much 
appreciate the opportunity to address the complex topic of the 
security situation in Syria and its implications for the United 
States.
    The Chairman. Let me ask you the same thing, if you could 
move that microphone.
    Ms. Yacoubian. Okay. Is that better?
    The Chairman. That is better. Thank you.
    Ms. Yacoubian. Okay. I would like to make three points this 
morning in my first remarks. First, the Syrian uprising I 
think, as has already been noted, has evolved from peaceful 
protests to a sectarian civil war with significant regional 
spillover. The conflict has resulted in a humanitarian 
catastrophe. The military situation on the ground suggests that 
Syria's civil war could endure for years.
    Over the past few months the Syrian Army has consolidated 
its control over some key areas. However, Syria will not return 
to the status quo ante. Vast swaths of Syrian territory remain 
largely out of the regime's control and under the sway of 
proliferating armed groups. However, rebel groups remain unable 
to coalesce and continue to lack unified command and control 
structures. Radical elements have been gaining ground, imposing 
their harsh version of Islamic rule on civilian populations. 
Armed groups inside Syria are growing more fractious and have 
increasingly started to turn their arms on each other. Numerous 
reports indicate an increasing number of foreign fighters in 
Syria. The net effect of both regime and rebel actions suggests 
that Syria is entrenched in a protracted military stalemate 
with neither the regime nor the rebels emerging victorious. No 
military solution exists. Instead the resolution will have to 
be political, coming via negotiations.
    Second, the United States has significant national security 
interests in Syria. Syria's geostrategic location, its growing 
importance as a jihadist arena, and its vast chemical weapons 
stockpile endow it with immense strategic significance. Syria 
borders several countries in which the United States has major 
equities--Israel, Jordan, Turkey, and Iraq. The conflict's 
outcome could directly impact their stability. Meanwhile, Syria 
is particularly attractive to jihadists, perhaps even more so 
than Iraq. It is a Sunni-majority country bordering Israel, 
affording jihadists a key opportunity to pursue their goal of a 
transnational caliphate that includes Jerusalem. The specter of 
jihadist elements or the Lebanese Shiite militant group 
Hezbollah gaining access to chemical weapons would constitute a 
key threat to U.S. national security interests.
    Third, while it is important to keep all options on the 
table, I do not believe the U.S. military should become further 
engaged in Syria at this point. Syria's complexity cannot be 
overemphasized, and our on-the-ground knowledge of this 
conflict is very limited. The downside risks of various 
military options are considerable. While arming is perhaps the 
least expensive option and requires the lowest level of U.S. 
commitment, it is fraught with risk. Effective vetting is very 
difficult, despite our growing relationship with elements of 
the Syrian armed opposition. Arming could lock us into a 
dangerous escalation dynamic by provoking commensurate 
increases in arms to the regime. From a civilian protection 
standpoint, arming is perhaps the worst option, presenting the 
greatest risk of civilian harm. And finally, flooding Syria 
with arms today will make post-conflict stability and 
reconstruction significantly more difficult.
    Enforcing a no-fly zone or establishing humanitarian safe 
zones requires a much more significant investment of U.S. 
resources. The potential for unintended consequences would be 
high, as this option could be long and messy and still not 
guarantee civilian safety. The potential for mission creep is 
significant. Numerous questions arise surrounding the extent 
and duration of these options. Regime change in Syria could 
emerge as a necessary next step, dramatically increasing the 
stakes for the United States. While I remain skeptical about 
the effectiveness of military options, I do believe that the 
limited use of force could be an effective lever for moving 
Syria towards negotiation.
    Circumstances could arise in which the limited use of 
force, specifically targeted air strikes, may alter the 
strategic calculation of key players on the ground and pave the 
way toward negotiations. Of course, the risks of air strikes 
are also significant. To minimize these risks, standoff 
weaponry should be employed. The use of surgical military 
strikes should necessarily be embedded in a well-conceived 
political and diplomatic strategy.
    To conclude, the United States cannot afford to ignore 
Syria, yet as Fred has also said, there is no silver bullet for 
resolving Syria's conflict. Military options are not likely to 
be successful unless they are embedded in a broader coherent 
strategy. While this hearing's focus is on the pros and cons of 
greater U.S. military involvement in Syria, the political and 
diplomatic dimensions of U.S. strategy toward Syria should take 
precedence.
    Thank you very much, Mr. Chairman.
    The Chairman. Well, thank you for your very thoughtful 
comments.
    [The prepared statement of Ms. Yacoubian can be found in 
the Appendix on page 67.]
    The Chairman. I remain convinced that this is very, very 
complicated, and as I have heard from others, there is no 
silver bullet, there is no simple answer. People say we should 
use diplomacy. I have assumed that for the last 3 years we have 
been doing that, but I don't know what progress has been made. 
People say that we should use military force. What would that 
be? Air Force standoff weapon strikes? All of those cost money 
and have risks. At a time when we are cutting a trillion 
dollars out of our defense, cutting back, you know, a third of 
our aircraft are grounded now, people are not--they are not up 
to speed. We couldn't put a man in an aircraft right now and 
say go. If we launched some of these strikes and maybe killed 
some Russians that are there, how does that escalate it? If we 
do go in, how far are we willing to go? We are still in 
Afghanistan and supposedly negotiating a bilateral security 
agreement to leave some troops there. We know that if 
sequestration continues, we will be cutting another 100,000 
force out of our Army. Of course, this is on Syria, we are not 
talking about Egypt, but that is also in the headlines now 
every day, and we saw, we see the problems with our precipitous 
leave from Iraq without leaving any force behind is now, you 
know, greeted every day with violence in that area. So the 
world is becoming more dangerous every day while we are cutting 
back our ability to do anything about these issues.
    So what I would like to ask, I think probably each of you 
agree that the U.S. does have national security interests. I 
would like if you could just briefly state what specifically 
are our national interests in Syria. You covered some in your 
opening remarks, but if we could just, you know, name two or 
three, that would be helpful, and do you agree that the 
administration could be doing more to secure U.S. interests 
within the conflict in Syria and that could include applying 
military resources, and what military courses of action should 
not be deployed and why?
    Mr. Abrams.
    Mr. Abrams. Thank you, Mr. Chairman. Our national security 
interests include the stability of Jordan, a long-time ally, 
preventing jihadis and/or Hezbollah from getting control of 
Syrian chemical weapons, preventing the Syrian regime from 
using chemical weapons again, and I would add preventing an 
Iranian victory that leads many countries in the region, but 
particularly Iran, to the conclusion that the United States is 
withdrawing from the region and that it can safely advance its 
own interests, become a hegemonic power in the region and 
safely develop nuclear weapons despite our policy that it 
should not be permitted to do so.
    Do you want to stop there or address the question of what--
--
    The Chairman. Let's do that one, and then we will--if you 
could come back to the last one.
    Mr. Hof. Well, Mr. Chairman, I think there is a range of 
national security interests here, and Elliott has mentioned 
several of them. To me, there is one in particular: The 
stability and well-being of allies and friends in the region. 
This I think is where the United States needs to hang its hat 
and put together a strategy that is focused on enhancing the 
stability and security of our allies and friends in the region. 
That can take you in any number of directions, but I think that 
there is absolutely no alternative other than to have an 
objective and an accompanying strategy, and I think our central 
interest here has to do with friends and allies. There are 
others, but the danger is if we adopt some of the others as the 
centerpiece of our objectives and strategy, we are more 
inclined, I think, to end up owning the problem. So I would--
you know, my advice would be focus on allies and friends. That 
is the real national security interest here.
    Ms. Yacoubian. I would concur with both Elliott and Fred. I 
think in the case of Syria, it really does revolve around its 
geostrategic location. The fact that it borders so many key 
U.S. allies and that we are already seeing such destabilizing 
effects of its spillover, today alone I think the news reports 
said there were errant mortar shells that fell in the Golan, 
you had an assassination in Lebanon, continuing attacks in Iraq 
at a time when Iraqi stability is already so fragile following 
the withdrawal of U.S. troops. So I think from my perspective, 
I would agree, it is really where Syria is located, the fact 
that there is a significant chemical weapons stockpile there, 
and now a growing jihadi presence, the ability for this 
conflict to destabilize the entire region, a region which is of 
immense importance to U.S. national security interests I think 
suggests that it is of critical importance that we pay close 
attention to what happens in Syria.
    The Chairman. Okay. I think you have made very good 
arguments to our national security interests so that we should 
be involved. Now militarily, what should we do and what 
shouldn't we do?
    Mr. Abrams. Mr. Chairman, as I said in my testimony, I 
worry a good deal about a no-fly zone. Mona touched on some of 
the same questions as to why a no-fly zone--we remember this 
from Iraq--can become an extremely long-lasting and expensive 
and dangerous effort. In my view there is an option for air 
strikes. I am unpersuaded by the U.S. military position right 
now that, you know, you can't do anything until you have done 
in General Dempsey's words 700 air sorties to suppress Syrian 
air defenses. I think there is an option. I think you have not 
been given that option. I think the President has apparently 
not been given that option because the military for very 
logical reasons really doesn't want to do that. But I think it 
exists. We have the power in the eastern Mediterranean, we have 
the 6th Fleet, we have bases in the region, and it just strikes 
me as really odd for us to be in a position of saying, well, 
the Israelis have the ability to do this, but the United States 
doesn't. You would have to choose or obviously the military 
would have to choose what are the targets in terms of Syrian 
air power, and Fred has mentioned the question of artillery, 
but what are reasonable targets? If one were doing a one-time 
strike for political, psychological, and military reasons, what 
are the air bases? How many fixed-wing aircraft or helicopters 
could one damage in, let us say, 1 day of strikes?
    But I am struck by the message that we leave if after 2 
years really the position of the United States is this is all 
awful but, you know, there really isn't anything we can do, 
there is literally nothing we can do. The red line the 
President drew was supposedly turned into military support for 
the rebels, but we read in the newspapers that in fact there 
has been no military support for the rebels, so we are in the 
position of saying we have zero options. I don't think that is 
a position the United States is actually in, and I think we 
should frankly be asking the military to come up with a plan 
that surely can be created.
    Mr. Hof. Well, Mr. Chairman, it has been--I did some quick 
arithmetic, it has been 23 years since I wore the uniform of 
the United States Army. I am a little bit reluctant, you know, 
to tell military experts how they should go about doing the 
job. What is essential here is that our military get some 
guidance from the Commander in Chief in terms of objectives and 
strategy.
    You asked if there are any particular applications of force 
that ought to be avoided. I think there is a broad consensus 
that avoiding the insertion of American boots on the ground is 
important. I can't conceive of any contingency where American 
boots on the ground would be required or desirable in Syria.
    A no-fly zone, extraordinarily expensive, extraordinarily 
resource rich in terms of sustaining, and as I think I 
mentioned in my opening comments, it does not touch the one 
weapon of terror that is driving this crisis, and that is the 
use of field artillery against populated areas. I think I would 
suspect that if the President, Defense Department, Joint Chiefs 
take a careful look at one potentially good option, it would be 
a series of air strikes using to the maximum extent possible 
standoff weaponry aimed at eliminating or seriously degrading 
the ability of this regime to do the kinds of things that are 
putting our allies and friends in jeopardy.
    This is not necessarily a silver bullet. It doesn't 
necessarily tilt the military balance on the ground 
significantly, but I think we have to keep in mind what the 
objective would be and in this case what the military mission 
would be. It would be to significantly--it would be to 
eliminate or significantly degrade the ability of the regime to 
conduct these mass terror operations, and it would be employed, 
in my view, only when we have satisfied ourselves that the 
diplomatic alternatives are just not there, just not working.
    You asked, Mr. Chairman, or you commented about you 
presumed that diplomacy has been going on. To the best of my 
knowledge--and I have been out of this business in the U.S. 
Government since September of last year--to the best of my 
knowledge, the emphasis of our diplomacy with the Russians over 
the past several months has been on the potential reconvening 
of a Geneva peace conference. I don't know the extent to which 
we have really been focusing with the Russians on what their 
client is doing inside Syria to imperil allies and friends of 
the United States. We may be doing it. I am not aware of it. My 
suggestion is if we are not doing it, that is really where the 
emphasis needs to be.
    Ms. Yacoubian. Just very briefly. Again, I would also be 
opposed to a no-fly zone because of the enormous costs, the 
downside risk, the potential for significant mission creep. As 
I noted in my oral testimony and also in my written testimony, 
I am also opposed to the option of arming the rebels for the 
very many reasons I laid out, primarily the concern and risk 
that arms could end up in the wrong hands, the potential for 
deeper escalation of the conflict, and we have already seen a 
significant doubling down of support by Iran and Russia to the 
regime. I would argue in part because of the small gains that 
the rebels were making. So I think we risk getting locked into 
an escalatory dynamic, but I also think it is very important to 
consider the negative effect on civilian protection that 
funneling more arms into a chaotic zone of conflict like Syria 
could have, and indeed I think if much of what we are talking 
about is understandably motivated by the moral outrage that I 
think all of us have at seeing the suffering of the Syrian 
people, I think civilian protection should be a critical 
element in any such decision. I, too, though, think that there 
is potentially a place for targeted air strikes, in part to 
degrade or--I don't know about eliminate, but certainly degrade 
the regime's ability to inflict harm, but I also think there is 
importance there, particularly if it is done, and I think it 
should be done, in alliance with others in the region or as 
part of a coalition to signal resolve about where our red lines 
are, what we are and aren't willing to tolerate, and finally 
and perhaps maybe most importantly, I believe there could be 
potentially, depending on the choice of targets, the ability to 
use targeted strikes as a lever to try and shift the calculus 
of key players on the ground and perhaps move the conflict more 
toward one of negotiation because ultimately I think that is 
where it is going to have to go.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you. In listening to this testimony, I 
think we are all trying to imagine a world that doesn't exist, 
which is a world where we could, in fact, impact what is 
happening. As Mr. Abrams said, we want to win. I think that is 
true. I mean, there is no question that if the Assad regime 
survives as a close ally of Hezbollah and Iran, we would rather 
have the other outcome. We would rather Assad not be there, we 
would rather have a government in Syria that doesn't support 
Hezbollah, that is not a close ally of Iran. We would rather 
have that. But what you have all made clear is what we would 
rather have is simply not on the table. I mean, it is not like, 
you know, these targeted air strikes and all of this is sort of 
like saying well, we can't eliminate the hornet's nest, so 
let's just put a stick in it to make ourselves feel better, you 
know, because we don't like it, we can't just sit here and do 
anything about it because targeted air strikes are not going to 
win, okay? You know, no matter what the target, a one-time air 
strike? I mean, you know, it is probably going to wind up 
killing some civilians. It might in a minor way degrade some of 
Assad's ability, but it certainly isn't going to put us in a 
position to win. All it would do is to some degree perpetuate 
the stalemate on a slightly different scale. So personally from 
everything that you have said and from what we have heard from 
the chairman, there is just no good option from a military 
standpoint that is going to move us towards the win that I 
think we would all like to have. It is not going to happen, you 
know. Assad has the support of Iran. I mean, we had a tough 
enough time stabilizing Iraq, and Iraq had limited support from 
Iran, but it didn't have Russia there shifting the weapons. And 
that was when our military was much, much more well-funded than 
it is right now. So I think we need to get off of this notion 
that it is frustrating to do nothing, therefore we have to do 
something. You know, a ton of instances in life you make a 
mistake when you are just frustrated by not doing anything, so 
just lash out in a certain way. None of what has been put on 
the table here strikes me as helpful.
    So the question I want to ask is the one point that has 
been made that I completely agree with is our allies--Turkey 
and Iraq and Jordan and Israel--and, you know, what threatens 
them, what threatens them about what is going on in Syria. 
Well, one of the biggest things that threatens them is the 
refugee crisis, so dropping more bombs on the population isn't 
exactly going to help the refugee crisis, you know, and I guess 
to some degree what I am arguing for here is to contain the 
insanity as much as we can to within Syria. It is also worth 
pointing out that Israelis' military strikes have been very 
targeted, and they have been targeted to a specific purpose, to 
stop the shipment of weapons in one case to Hezbollah. I mean, 
we could do that, if there was a given cache of weapons that we 
didn't want to go from point A to point B, we could hit it. But 
it wouldn't in any way significantly degrade Assad's ability 
to, you know, to fight the war that he is fighting. So the 
Israel example is not helpful at all in terms of what we would 
be capable of doing.
    What could we do and what should we do to try to contain 
this within Syria? Because the other point about arming the 
rebels and, Ms. Yacoubian, I agree with you completely, those 
arms are bouncing all over the place. I mean, there has been 
reports of some of the arms that has been helped that were 
supposedly going to the Free Syria Movement that wound up in 
the hands of the Assad regime, that wound up in the hands of 
jihadists. You know, shuffling more weapons in there also 
doesn't help stabilize the region. How can we contain this so 
that it doesn't--what can we do to help the refugees, what can 
we do to help Jordan because, you know, doing a little pin 
prick on the military side that clearly won't put us in a 
position to win, and I personally feel having, you know, talked 
to the Pentagon extensively about this, won't even really 
significantly shift the balance of power in any way that is 
advantageous to us. If we can get off of that and think about 
what our strategies could be to contain it to Syria, to try to 
protect Jordan, to try to protect some of our allies, I would 
be curious, you know, what thoughts you have on that.
    Mr. Abrams, I guess we will start with you.
    Mr. Abrams. Thanks, Mr. Smith. I have to say, I don't think 
it is possible in the sense that if you have a country that 
comes under--let's say Assad wins, comes under essentially 
Iranian domination because he will owe his survival to Iran.
    Mr. Smith. Keep in mind, that is what existed up to 2 years 
ago. I mean, you mentioned, you know, Assad, his support for 
Hezbollah, his support from Iran, that was the status quo 
before this started 2 years ago. So we have lived in that 
world.
    Mr. Abrams. Well, I would----
    Mr. Smith. Not happily, I will grant you, but we have lived 
in it.
    Mr. Abrams. Again, I don't fully agree with that. Before 
this war broke out, yes, he had an alliance with, of sorts with 
Russia and with Iran, but his survival in power was not clearly 
and directly dependent on them and not just in aid. It is not 
just aid. There is an Iranian expeditionary force in Syria, 
there are Hezbollah troops in Syria, so he is directly 
dependent on them. If that is the situation in a country that 
is 74 percent Sunni, I think you will see a continuing outflow 
of refugees.
    Now, we can increase the aid to Jordan. I think, in fact, 
you have been very generous to Jordan. I would like to see more 
Gulf aid. They have now been very generous toward Egypt in the 
last couple of weeks. I would like to see the level of aid to 
Jordan increased, but you would be leaving a situation, I 
think, which is quite unstable because you would be leaving a 
regime there that had just slaughtered 100,000 of its own 
population, and the regime is still in power. Why would those 
people stay in that country under the domination of that regime 
when they could go to Sunni neighbor countries and try at least 
to have a safer life? I would also say, to be fair to me, I 
think, we are not talking about pin pricks. We talk about a 
one-time series of strikes on Assad's air power. He was not 
initially using air power 2 years ago. He began to use air 
power when he needed it.
    Mr. Smith. But you seriously think that a one-time strike, 
no matter how robust it is, would lead to the Assad regime 
losing----
    Mr. Abrams. I think that a----
    Mr. Smith [continuing]. Or even significantly degrade their 
ability to stay in power?
    Mr. Abrams. I think a one-time strike that largely 
eliminated Assad's air power and his ability to use those bases 
as well for a period of time would affect the military balance. 
If he didn't need to use air power, he wouldn't be using it. 
That is my thought.
    Mr. Smith. Okay.
    Mr. Hof. Well, Mr. Smith, I think you have, you know, you 
have articulated some reservations here that do illustrate the 
central point. You know, there are no silver bullets here, and 
in the context of Syria, which is really the classic problem 
from hell, this is largely a matter of choosing the least worst 
of some unpalatable options. Those of us who are suggesting 
that the Commander in Chief and the military consider some 
military options here really are not doing so, sir, out of a 
sense of frustration or out of a desire to have to be seen to 
be doing something. We have an objective problem here affecting 
allies and friends in the region. There are 1.8 million 
refugees now. The U.N. is estimating that that number could 
easily double by the end of this year. This problem is being 
driven by something very specific. It is the regime's survival 
tactic of choice, which is to use massed fires, both from the 
ground and from the air on populated areas that are beyond its 
physical control. Now, would a series of air strikes 
necessarily decisively affect the balance in Syria and lead to 
military victory by some other side? Probably, probably not. 
But is this the American objective here? Is it the American 
objective to win a military victory in Syria, to take ownership 
of the Syrian revolution? I don't think it is. I think we need 
to focus very closely on what the objective would be here. If 
we come to the conclusion that diplomacy is not really going to 
work----
    Mr. Smith. Sorry, if we could skip to the really critical 
part of what you just said----
    Mr. Hof. Yeah.
    Mr. Smith [continuing]. And say what you think that 
objective would be, since it is not, not winning.
    Mr. Hof. Yeah.
    Mr. Smith. What would that objective be?
    Mr. Hof. I think the objective would be to destroy or 
seriously degrade the ability of the regime to do this campaign 
of mass terror. It would entail destroying significant amounts 
of artillery, air, and missile assets. Would it involve bombing 
civilians? Certainly, certainly not deliberately. Will there be 
collateral effects? Of course. Any of us who have ever served 
in the military understand this. Collateral effects, American 
casualties should be assumed. There are no cost-free options 
here.
    Mr. Smith. And my problem is at the end of that, you know, 
based on every military plan I have seen, the Assad regime 
still stands, the jihadis are still there, and maybe Assad is 
able to bomb fewer civilians. How many fewer I don't know. At 
the end of that, what have we really achieved in terms of 
shifting the situation in any way out of the terrible situation 
that it is right now?
    Mr. Hof. We have probably given our allies and friends a 
period of relief. Whether--you know, whether or not it 
decisively affects the situation on the ground, I don't know 
that anybody could predict that.
    Mr. Smith. The other question about this is, as has been 
pointed out, Hezbollah is sending stuff to them, Iran is 
sending stuff to them, Russia is sending stuff to them, and we 
go in, you know, take out 50 of their aircraft. What is to 
stop, you know, Russia from selling them 50 more? What is to 
stop Iran from sending another brigade in?
    Mr. Hof. Yeah, it would probably be difficult to resupply 
if, you know, if associated support systems are engaged, air 
fields and so forth. But, look, it is not our job to secure a 
military victory for the Syrian revolution. If Assad is 
actually going to be better off without an Air Force, without 
helicopters, without major parts of his missile force, with 
major parts of his artillery gone, so be it. I don't think he 
is going to be in a better situation. That is not the same 
thing as predicting that this is the long sought silver bullet.
    If I could make just one comment on the arming of rebels. I 
agree entirely that Syria is awash in arms, but look where they 
are located. The regime has just about everything it needs. The 
jihadists, largely with support from private sources in the 
Gulf, have a great deal. Who are the people that are looking 
for support here? They are the folks in the middle. They are 
the Syrian nationalists who are actually trying to produce a 
decent result here. Sure, we and our allies can cut them off, 
but what does that do? What does that do for them? What does 
that do for us?
    Mr. Smith. It is not a matter of cutting them off.
    Mr. Hof. I suppose if we want the violence to stop, one 
alternative here, I guess, would be a regime victory, but I 
don't think that that is the kind of result that is going to be 
good either for Syrians or their neighbors.
    Mr. Smith. And I am sorry, I am going to stop my time now. 
I know there is other people want to speak. I am taking way, 
way too much time. I am sure other questions will come up that 
Ms. Yacoubian can address. I yield back. Thank you.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. Let me at least 
initially change the subject briefly. A couple of you have 
mentioned the chemical weapons. I appreciate the fact if there 
is a complete collapse and chaos that involves Jordan, Turkey, 
Israel, the biggest issue we could imagine, if, as most people 
say, this thing is going to stalemate most likely for the 
foreseeable future, it seems to me that the chemical stockpile 
and especially the chemical weapons getting in the hands of the 
jihadists is the greatest direct national security danger that 
we face, and yet at least a couple of you said never any boots 
on the ground, under no circumstances, et cetera, et cetera. So 
talk to us a little bit about how you see this chemical weapons 
stockpile, the danger it poses to us, and are there no 
circumstances under which limited military action, maybe even 
boots on the ground would not be appropriate to prevent attacks 
against the homeland or attacks against our allies in Europe or 
the region?
    Mr. Hof. Thank you, Mr. Thornberry. I guess I will start.
    Chemical weapons in the hands of jihadists would definitely 
be a bad outcome here. Chemical weapons in the hands of a 
regime willing to use them against the people of Syria is the 
circumstance that is staring us in the face right now. And to 
me, this is the most alarming of circumstances because it is an 
actual fact. And it is one of the reasons perhaps--in the mind 
of the President of the United States, it is probably the 
central reason why he sees a transition from the Assad regime 
to something better as essential.
    In terms of the specifics of how this would be handled and 
whether or not there would be contingencies potentially 
involving American boots on the ground, I have to say, 
Congressman, I am skeptical even in those circumstances. But I 
think that this is probably a question better addressed to the 
Department of Defense in closed session.
    Mr. Thornberry. Anybody else choose to weigh in on that?
    Mr. Abrams. Just to say that I have to assume that there 
have been--and there have been some press reports--that there 
have been lengthy discussions between the U.S. military and the 
Israeli military about this question. And there is a question 
as to what the Jordanians or Israelis or Turks might be able to 
do directly, maybe with help from the U.S. that would avoid a 
direct U.S. military role in that.
    Ms. Yacoubian. Maybe just very briefly, I mean, my 
understanding is that in terms of boots on the ground, it would 
potentially require a significant commitment of forces. I have 
heard 70,000 or 75,000, which is obviously no small number. 
Unfortunately I think the options are quite limited. Beyond the 
thought of working with allies, there is also the potential of 
working through groups that we are training and working with 
now in covert programs.
    But I would also, if I could, just take a moment to talk or 
bring the conversation back briefly to the question of targeted 
strikes. One, there is also the thought--although if the 
stockpiles are transferred or loss of control takes place, I 
think that leaves one with very few options. But there is the 
thought of potentially using targeted military strikes to 
disable delivery systems of such weapons.
    But I think for Mr. Smith's benefit, I just wanted to 
slightly differentiate my position on targeted strikes. That I 
see them, again, as something that would have to take place as 
part of a broader political strategy. And from my perspective, 
it is not so much the military value of such strikes but rather 
the question of whether the use of targeted strikes could alter 
the calculus of key players on the ground, those who are 
currently supporting the regime, to disavow support for the 
regime. Is there a way--and it is a very open question--that 
targeted strikes could be employed in the use of a broader 
political strategy to try and seek negotiations.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for being here.
    If I could pick up on what you were just saying, Ms. 
Yacoubian. In terms of a broader strategy, one of the things 
that we know is that we didn't necessarily entertain the 
question of what next when it came to Iraq particularly. And 
where have you seen those discussions occurring now? I mean, to 
what extent--we have talked a little bit about what a post-
Assad regime would look like. It is probably pie in the sky 
right now to think exactly in terms of that. But what kinds of 
discussions should we be having right now that we are not 
having?
    Ms. Yacoubian. Thank you for your question. I think we have 
to, one, start to think more creatively to the extent possible. 
I think we all agree it is absolutely a problem from hell. I 
think we all agree frankly on the analysis with regard to the 
situation on the ground. The question is, how do we get to some 
place. And unfortunately I think at this point, a democratic, 
multi-confessional, inclusive Syria just does feel like a very 
far off ideal. But at a minimum, how do we try to minimize 
Syria's spillover? And how do we think more, frankly, 
creatively about external players? And I do think Russia has a 
very important role to play. There has been no small amount of 
time, I know, and effort devoted to trying to sort of pull the 
Russians around. I understand the frustration that that has yet 
to yield much. I still think it is a very important venue to 
continue to pursue. I do think we have to think a bit more 
about Iran and its role. It is a key--perhaps the staunchest 
supporter of the Assad regime. I don't know what the answer is. 
Is there a way to bridge some of these deeper regional security 
concerns, whether it is Iran's nuclear capabilities and its 
role in Syria? I just think that when we talk about the 
projection of U.S. power, we think largely in military terms. 
And I think we really need to be thinking more in terms of 
leadership, our role as the key global power, how can we do 
more to sort of coalesce a group of key allies, including 
Russia, who is not an ally but has a key role to play in this.
    Mrs. Davis. Thank you. I want to move on. Mr. Ambassador 
and then Mr. Abrams.
    Mr. Hof. It is an excellent question. And the issue of what 
is next in Syria, what follows this regime is all important in 
my view. I think we need to approach this first of all with a 
sense of modesty. There is no way the United States is going to 
be able to micromanage an end result in Syria. This is not 
something that we are going to be able to control. Can we 
influence it around the edges in constructive ways? I would say 
that if we don't try our best, the answer is going to be 
inevitably no. I don't think we should start from a sense of 
hopelessness here. I think the Syrian opposition, the 
mainstream opposition is in the process right now of 
establishing an executive council of some kind that is going to 
try to establish itself on Syrian territory in liberated zones. 
I think this is something the United States really needs to 
follow up on. Until there is an alternate government on Syrian 
territory, a government that pulls together people who are, 
indeed, dedicated to the idea of one Syria, a nonsectarian 
Syria, a Syria of citizenship and rule of law, until that 
exists on the ground, people who are still supporting this 
regime because they don't know what the alternative is will 
continue to support the regime. So in my preferred strategy, 
that is a key direction to go in.
    Mrs. Davis. Thank you. Mr. Abrams, I am sorry, you only 
have 22 seconds. But I hope you can do that.
    Mr. Abrams. I will be brief.
    I think the problem is that those kinds of people who Fred 
Hof is talking about are not getting money and weapons from the 
Gulf. The more extreme elements are. And we are not backing 
those people--Syrian nationalists--with anything like the----
    Mrs. Davis. For the record, do you have metrics that you 
would suggest in order to actually vet those groups? I mean, do 
you think that we are looking at that? For the record. Thank 
you.
    [The information referred to can be found in the Appendix 
on page 83.]
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. And I want to thank 
each of you for your contribution to this discussion. This is 
somewhat of a difficult one because I agree with--Ms. 
Yacoubian.
    Is that close at all?
    Ms. Yacoubian. It was perfectly fine.
    Mr. Turner [continuing]. On the fact that we have a problem 
on the issue of the projection of power being a deficiency of 
leadership.
    I want to follow up on what Mrs. Davis was saying. We see 
that Hezbollah is relevant in Syria. Iran is relevant in Syria. 
Russia is relevant in Syria. And because of the vacuum of 
leadership that we have in the United States, it seems as if we 
are not relevant in Syria. I don't know that anyone could 
clearly state what the articulated policy of this 
administration is with respect to Syria. And therefore, the 
options of what we should do are obviously difficult to 
conclude.
    So my question is going to have two parts. First, I think 
each of you are advocating that we do need to be relevant and 
that certainly we don't want an outcome where Hezbollah, Iran, 
and Russia are the determining relevant players without 
American leadership. And in doing so, then I would like if you 
could give us some sense of what should our goal be. Obviously 
there are a number of options as to what the goal should be--
secure weapons of mass destruction, chemical weapons, some 
argue regime change. In Libya, it was an issue of--the 
articulated goal was to protect civilians from mass murder. 
What in your eyes as we see this situation should be the 
articulated policy of the United States?
    And then secondly, Mr. Abrams, I am very concerned with the 
prospect of--you had indicated, you know, with a robust strike, 
we could significantly diminish Syria's capability both air and 
their military bases. I was a significant critic of the 
administration's policy in Libya because of the concern that it 
could result in the weapons stockpiles in Libya becoming 
unsecured. We did see later that that was one of the results.
    So I am concerned that an action of robust strike or no 
matter how limited it might be might actually have that same 
outcome, that, in fact, by our diminishing Syria's ability to 
secure its own weapons stockpile that we might create an issue, 
where, in fact, those weapons fall into the hands of jihadists 
or those who would pose us a threat.
    I would love your thoughts. Mr. Abrams.
    Mr. Abrams. Thank you. What should our role in Syria be? I 
mean, we have talked about the role of trying to help U.S. 
allies--for example, Jordan, Turkey, Israel--deal with the 
crisis in Syria. Inside Syria, I think the way I would put it 
is, our goal should be to prevent the continuation of power or 
installation of a hostile regime, hostile to us, and dependent 
on Hezbollah and Iran for its survival because such a regime is 
going to be a tremendously destabilizing factor permanently in 
the region.
    Just on your point on the air strikes. Yes, I think what 
happened there is we, in a sense, collapsed the government of 
Libya, and it was replaced by anarchy. So that gets us back to 
what I think Fred Hof was saying. One of the reasons for trying 
to establish an alternative government and build up its 
strength now is to prevent that moment or period of complete 
anarchy when there is no control over the Syrian military and 
military stocks. That is a risk that is run. I don't think it 
is run by a series of air strikes that are aimed primarily at 
Assad's air power. But I think it is run by a collapse of the 
regime if that collapse is followed by nothing, by anarchy for 
months.
    Mr. Turner. Thank you, Mr. Abrams. Ambassador.
    Mr. Hof. Congressman, in terms of what our goal should be 
in the context of Syria, number one, enhance the security and 
stability of our allies and friends in the region. Number two, 
transition, political transition away from this regime. Three, 
replacement of the regime with something decent. Those are 
broad goals. They have obviously got to be filled in with a 
detailed strategy--diplomatic and perhaps military--to go about 
it. The proliferation problem. Yes, it is there. But again, the 
biggest problem is the one that is staring us right in the 
face. A regime sitting on an enormous stockpile of weaponry, 
conventional and unconventional, and a regime that has a track 
record for transferring weaponry, including Scud missiles, to 
terrorist organizations. We need to look at contingencies, 
obviously; but we shouldn't forget at all what is staring us 
right in the face with the current situation.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
panel for what has been a very fruitful discussion. Obviously 
these are critically important issues to our national interest, 
and we certainly appreciate your contributions to this dialogue 
today.
    I think that the argument that has been raised today about 
some type of limited strikes have merit. And I take from your 
discussion here today the fact that it would, in fact, degrade 
Assad's military capability in some way. I also believe, too, 
it seems to me that there is a strong psychological benefit to 
some type of a limited strike, is what I am hearing.
    Let's face it, the rebels at one point were doing pretty 
well. And then with the Hezbollah coming into the region and 
some other things that have occurred, the tide has shifted. And 
now it seems that Assad's forces are the ones that are 
dominating. And certainly that has had an effect on the rebels' 
ability to coalesce and to fight with a coherent strategy. So 
it seems to me that it also would send a message to the nations 
of the region that the United States does see this as a vital 
national interest and that we do and are willing to put skin in 
the game.
    There is also the troubling fact that there have been 
approximately 100,000 people that have been killed in this 
conflict. And without some demonstrable action, it appears that 
the world community is willing to stay silent with that many 
people having been killed. I am also troubled by the fact that 
the Assad regime has used WMD [weapons of mass destruction] on 
its own people, and there has still been no demonstrable 
response on the part of the world community. And in my mind, 
that only appears to embolden them to keep doing it again. So I 
would disagree respectfully with the ranking member who would 
say that this is not going to have any benefit at all.
    Can you comment again further on its ability to degrade, a 
limited strike, degrade the Assad regime's military capability 
but also the psychological benefit boost that this may give to 
the rebels but also the psychological effect that it might have 
on Russia being then forced to the table to help actually be 
willing to sit down and broker some type of a peace effort.
    Can you comment on the things that I have mentioned?
    Mr. Abrams. If I can start, Mr. Langevin. I take your 
point, and I agree with the point. And I think that where we 
stand now is, if you are looking at this from the Iranian or 
Russian point of view, there is no American position. Are the 
Americans going to react if you send an Iranian expeditionary 
force into Syria? Apparently not. Are the Americans going to 
react if you use chemical weapons against the population 
several times over? Apparently not. So why should you give 
anything up at the negotiating table? There is no pressure on 
you. There is no American pressure. So I think this action 
would have that kind of impact.
    If your goal is a successful negotiation, it is more likely 
you will get one, I think, if we take that route. And it will 
also have an impact on the ground because, as I noted before, 
Assad did not initially use air power. That is something he 
started doing when things were going badly for him. And I, 
therefore, assume--and I think it is reasonable--that denying 
him the use of a lot of his air power would have an impact on 
the battle on the ground.
    Mr. Hof. Congressman, when John Kerry became Secretary of 
State, one of the central points he made about Syria was that 
having a Geneva negotiation of some kind is a really good idea. 
It is a good objective, provided one key thing happens. And 
that is, Assad's calculation has to be changed. He has said 
this numerous times in numerous places, both publicly and 
privately. Changing Assad's calculation. Right now, that 
calculation is changing. It is changing in the wrong direction. 
He has got Hezbollah and Iran all in. He has Americans debating 
whether the positive forces in Syria are worthy of any kind of 
support at all. I think in this case I would tie a military 
operation directly to a military mission. There may be 
additional benefits, but I wouldn't necessarily count on them.
    The Chairman. Thank you. The gentleman's time has expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Thank you all for 
being here today. If you look back on the history of Syria, but 
for the chemical weapons, isn't this just the latest iteration 
of a long process that these folks go through periodically 
either on their own or forced from the outside to reset the 
political structure within the country? The French tried in the 
1920s to, in effect, set up a bit of a partitioning within the 
country. Can you talk to us about whether or not that is a 
rational approach to--going back to Ambassador Hof's comments 
early on that the clearest national security interest 
articulated so far other than the chemical weapons is the chaos 
inside Syria and its impact on its neighbors. And so if we 
could get to eliminating that chaos within the country, would 
partitioning be a step in that direction?
    Ms. Yacoubian. Thank you. Maybe I will take a quick stab at 
that.
    My sense is that partition is not the way to go in Syria, 
that it would dramatically increase the already significant 
levels of human suffering, that you could see all kinds of 
instances of ethnic cleansing and other things. I think that 
the territorial integrity of Syria and maintaining its cohesion 
should be a key goal in all of this at the end of the day, that 
the end state of Syria should be a cohesive Syria that 
remains----
    Mr. Conaway. Okay. Speak to this then: What does reduce the 
violence inside the country?
    Ms. Yacoubian. Well, again, I think from my perspective, 
this is a long--this is a very difficult issue. I mean, I would 
want to maybe take a little bit of issue with what you started 
your question with, which is how we got to where we are. I 
think we need to bear in mind that what has happened in Syria 
comes within the context of broader change that is sweeping the 
Arab world. It did start as peaceful protests. There is a 
significant yearning amongst the Syrian people to live 
peacefully and democratically and so on. My own sense is, 
though, that seeking to divide the country or allowing the 
divisions that are already permeating to take hold would not 
constitute----
    Mr. Conaway. All right. Well, not necessarily quibbling 
over what triggered this latest dustup.
    Mr. Abrams. Mr. Conaway, I think one has to remember, it is 
a 74 percent, 75 percent Sunni country. There is no way that 
that minority Alawite regime allied to the Shi'a Iranian regime 
is going to be able to remain in power except through brute 
force.
    Mr. Conaway. All right.
    President Obama said using chemical weapons was a red line. 
The press has reported--open source reporting--that chemical 
weapons have been used. The chairman said that he thinks the 
administration is about to confirm that.
    Being that the biggest player on the field shouldn't bluff, 
if it has actually happened or happens in a big wide-scale 
event. Let's clearly eliminate the question as to whether or 
not it has actually happened. Let's say he throws it at one of 
the opposition's strongholds in a big event. What would be your 
advice to the administration?
    Mr. Abrams. I think the President should prove that he was 
not bluffing. And whether it is through a very substantial 
provision of arms to the rebels or direct military action by 
the United States, I think the regime has to be harmed. It 
needs to be damaged so that it learns a lesson that this is not 
going to be tolerated and that it will come out worse if it 
does it again.
    Mr. Conaway. Mr. Ambassador.
    Mr. Hof. I think, Congressman, that back on June 13, the 
administration acknowledged openly that chemical weapons have 
been used. This is a hard conclusion that people have come to. 
You know, there are some lingering questions about chain of 
command and all of that. But chemical weapons were used. The 
administration said that its response was going to be to 
increase significantly assistance to the armed opposition. I 
believe that has been translated into a desire for weapons 
targeted to vetted elements of the Syrian armed forces. I 
definitely think that needs to happen and quickly. And more 
importantly, the United States, I think, has to play a central 
role, kind of an umpiring role in deciding who gets what from 
major sources because under no circumstances will weaponry 
coming out of American sources be the major source of weaponry. 
We need to play a big role in deciding the stuff that is coming 
out of Gulf countries and elsewhere. Where is it going? Make 
sure it goes to people that we want it to go to.
    Mr. Conaway. Thank you. I yield back.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. Mr. Ambassador, I 
want to pick up on your answer and sort of looking at the next 
steps. If the administration's stated objective is to achieve a 
negotiated settlement to the Syrian conflict that involves 
President Assad stepping down, then as we are looking at which 
weapons go where, we are going to potentially be dealing with 
all the groups that are involved, what steps should the United 
States take in our engagement with these opposition groups and 
regional actors to increase the likelihood of this post-
conflict transition process that will lead to stability in 
Syria? Are we then saying that these groups get some of these 
arms, these don't? How do we do that?
    Mr. Hof. Yes. Thank you for your question. It is a rather 
complex process of picking and choosing. For quite some time 
now, various departments and agencies of the United States 
Government have been diligently involved in trying to determine 
who inside Syria needs to be supported, okay. Over the last 
several months--indeed, over the past year, a real track record 
has been established in terms of providing nonlethal assistance 
to various groups, individuals inside Syria. So it is not as if 
we are flying blind here. Okay. I think that the vetting has 
been thorough. As I mentioned earlier, if we expect 100 percent 
success, it is just not going to happen. It is inevitable in a 
complex operation of this kind that some things will get to the 
wrong people. But the wrong people, believe me, are already 
flush in weaponry.
    I think the key element here, beyond providing arms, is 
working with allies to make sure that supplies coming from 
elsewhere go to the right people. And then working very closely 
with the Syrian opposition, as difficult as that is--and 
believe me, I know how difficult it is--to get an alternate 
government established on liberated Syrian territory. This will 
be the key step to trying to influence a decent outcome in 
Syria.
    Ms. Duckworth. Well, but opposition groups have refused to 
even participate in the Geneva II peace conference. So is it 
reasonable to have an expectation that we think that we can 
influence a level of change within this opposition so that they 
will all come to the table? Is that what you are saying, that 
we are going to tie access to resources to you must come to 
negotiations? Is that what you are saying?
    Mr. Hof. I am persuaded that Secretary Kerry and his staff 
will be able to persuade the Syrian opposition to attend a 
Geneva II conference, if such a conference comes about. I mean, 
we have to keep in mind the purpose of Geneva. It is transition 
from the current regime to a national unity body. Okay? If the 
opposition is convinced that that is the purpose and that is 
why people will get to Geneva and they will be able to exercise 
a veto basically--all of this is in the Geneva agreement--I am 
convinced the opposition will be there, that it will not permit 
the regime to show up and debate an empty chair. And I think 
Secretary Kerry can bring that off.
    Ms. Duckworth. Thank you, Mr. Ambassador. Mr. Abrams, did 
you want to add to this?
    Mr. Abrams. No.
    Ms. Duckworth. Okay.
    Ms. Yacoubian. I think that the Geneva process is certainly 
ultimately the way to go. But I personally am skeptical about 
the use of arms to sort of entice rebels to go, in particular 
because I think whether or not--even if we are able to coerce 
them to the table, I think the real question is, how much 
influence on the ground would those rebels that would come to 
the negotiating table have? And I think increasingly, we are 
seeing a situation in which more extreme elements, those 
associated with Al Qaeda and others, are having more and more 
impact on the ground.
    Ms. Duckworth. Thank you. I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    All of you have stated that one of the key threats in Syria 
are the stockpiles of chemical weapons I think falling into the 
wrong hands. I believe that Israel has done four air strikes 
by--well, it at least has not denied--four air strikes into the 
region to interdict the movement of weapons that they felt 
obviously that would fall into the wrong hands. We support 
Israel militarily through aid. Syria is on their border, 
clearly in their sphere of influence. All of you I think have 
stated in one form or another that Israel's interests and U.S. 
interests are the same. So why is it then that greater U.S. 
involvement is needed, given Israel's capability to intervene 
in the region?
    Mr. Abrams. Mr. Coffman, my answer to that would be that we 
are in a sense playing two different games here. Israel has a 
narrow goal, which is to prevent the movement of weaponry to 
Hezbollah. That is basically what they are doing.
    On the broader question of relations between Syria, 
Hezbollah, Iran, U.S.-Iran, U.S.-Russia, who rules Syria, what 
happens to Jordan, that in a sense is a higher level game that 
a superpower can play. But I don't think you can say to Israel, 
look, you are in charge of the whole region, and you have got 
to determine the outcome of the war in Syria. I don't think you 
can say to them that we are going to stay out of this, your job 
is to police Syria.
    Mr. Hof. Congressman, the only point I would add to that--
and I am sorry if I sound like a broken record--chemical 
weapons in Syria are already in the wrong hands. They are in 
the hands of a regime that is neck deep in criminal activity 
and a regime that has a proven track record for proliferation 
over the years. So I just hope we don't lose sight of that 
particular point.
    Ms. Yacoubian. Maybe I will just very quickly add, I think 
the Israelis have themselves said they have no interest in 
getting directly involved in Syria. I think they are very 
wisely protecting their own interests, doing what they feel 
they need to do when their red lines are crossed. But I think 
understand that, for them, I don't think it is in Israel's 
interest nor do I think it is in the region's or our interests 
for Israel to become more directly involved in Syria.
    Mr. Coffman. In terms of a resolution, I think all three of 
you dislike the notion of partition. And I served in Iraq in 
2005-2006 with the Marine Corps, and I know that it was floated 
in the Congress at that time about partitioning Iraq. And there 
were whole provinces that fell on one side of the sectarian 
divide or another. But Baghdad had communities certainly that 
were on one side or the other. But Baghdad was a mix between 
Shi'a and Sunni. I understand in Syria that there are specific 
areas that are dominated by Alawites versus Sunni Arabs. Is 
there a viable solution that would, in fact, maybe even either 
divide the country or create sort of a loose federation, as in 
the case of Iraq with the Kurds and the Sunnis and the Shi'a?
    Mr. Hof. Congressman, I think if that kind of a solution is 
going to come about either on a permanent or an interim basis, 
it will be the product of events inside Syria. The key 
difference, of course, is in Iraq we were an occupying power. 
We actually had a good deal to say about the future of Iraq's 
political shape. In Syria, an analogous situation does not 
exist. I agree with Mona Yacoubian that for Syria territorial 
integrity at the end of the day I think is important. But the 
key point is I think it is important to almost all Syrians.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Conaway [presiding]. Mr. Johnson from Georgia, 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Abrams, I believe 
it was you that I heard earlier this morning talk about the 
fact that the U.S. should--I don't want to say apply pressure. 
I am not sure that you used that terminology. But there should 
be some work to cause the Russians to become more responsible 
in terms of their support for the Assad regime.
    Is that a fair characterization?
    Mr. Abrams. Well, I do believe it. I think actually it was 
Mona Yacoubian who talked more directly about that.
    Mr. Johnson. All right.
    Ma'am, since you talked about that, let me ask you, what 
impact does the Edward Snowden drama have on our ability to 
encourage the Russians to change their behavior?
    Ms. Yacoubian. That is a terrific question. And I have to 
confess, I haven't thought about it in terms of the impact on 
Syria. But I think the extent to which there is greater 
mistrust--and it is already a fairly tortured relationship--
can't help in terms of our ability to work with the Russians or 
convince them.
    But I would say this, I do think in terms of trying to 
understand Russia's calculations with respect to Syria, that 
whereas, I, as an analyst, and I think others had initially 
thought there was more common ground between the U.S. and 
Russia with respect to Syria. I think what I am seeing is that 
from the Russian perspective, the precedent of international 
intervention leading to the unseating of a regime is anathema. 
And I think they look to Libya as the prime example and seek to 
avoid that at all costs. So I think the extent to which there 
is greater mistrust in the U.S.-Russian relationship, the 
extent to which the Russians feel that they are somehow going 
to be led down a path that from their perspective leads to an 
outcome that is untenable, I think it makes it all the more 
difficult.
    Mr. Johnson. Thank you.
    Either one of you gentlemen care to respond?
    Mr. Hof. Congressman, I think the only thing I would add to 
that--and again, it is an excellent question. And I hadn't 
thought of the Snowden aspect of this either.
    I certainly don't think that there should be any sense of a 
trade-off here. I think we need to be very, very, very direct 
in a professional way with the Russians, saying, look, your 
client is hurting our allies and friends. He is doing it in a 
way that is entirely gratuitous, a way that has no objective 
military purpose. It is terror on a mass scale. We want you to 
weigh in with your client and make it stop.
    Now whether or not Moscow has the objective ability to 
bring that about is another question altogether. Bashar al-
Assad may just tell them, thanks for your views on national 
security, I am going to do what I feel like doing. But it seems 
to me at a minimum, at a minimum, this is where we really need 
to be pressing Moscow.
    Mr. Johnson. Is it your belief that the points that you 
have made have not been made by this administration to the 
Russian people or to the Russian leadership?
    Mr. Hof. Congressman, I don't know the answer to that 
question. I think what I do know is that our emphasis with 
Moscow over the last 3 months or so has been on trying to 
resurrect the Geneva process and bring about a Geneva II 
conference. Whether or not there has been a specific sustained 
diplomatic campaign focused on the Russians and the behavior of 
their client, I honestly don't know.
    Mr. Johnson. Anyone else want to comment?
    All right.
    Okay. Well, what will a relationship between the U.S. and 
Syria look like if Assad is able to retain power?
    Mr. Abrams. If Assad is able to retain power, I don't think 
we can re-establish a relationship with him, not after the mass 
murders that he has committed, war crimes, crimes against 
humanity, 100,000 dead, the use of chemical weapons. I don't 
see that has any future.
    Mr. Johnson. Thank you.
    Mr. Conaway. The gentleman's time has expired. Mr. Scott 
from Georgia for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I apologize. I had to 
step out for a minute. If you answered some of my questions, I 
apologize.
    But, Ambassador, you made the statement that Syria's 
revolution is not America's to win or lose. I wrote it down 
when you said it. And I agree with you. I don't think that the 
crisis in that country rises to the level or national interest 
that we should intervene militarily. I think there is broad 
support for the humanitarian assistance, both from myself and 
from many others. And I think there is just a tremendous amount 
of agreement that we must support our allies--Israel, Jordan, 
Turkey--in that area.
    My concern from the testimony comes from the fact that each 
of the three of you have suggested that in some way, shape, or 
form, the U.S. could get involved militarily, whether it be 
with targeted air strikes or other things, essentially trying 
to carry out a mission of removing Assad. And you have also 
each indicated that we should not put boots on the ground.
    So my question is, if the United States does not put boots 
on the ground to secure the chemical weapons that Assad 
currently has, who do you intend to have secure those weapons?
    Mr. Hof. I will take a stab at that, Congressman. I think 
over the past 18 months, the Department of Defense, in 
consultation with Israel and perhaps others, has conducted a 
very, very serious planning process that addresses that 
question in some detail. I am not familiar with the contours of 
that process, Congressman. And I think the question you are 
posing is an excellent one. I think it is probably better posed 
to the Department of Defense in closed session. And I would 
just add, speaking for myself as a former military officer, I 
am not looking for an excuse for U.S. military intervention in 
Syria as the first option, okay. My sense of priority has to do 
with our friends and allies in the region and how they are 
being swamped by the gratuitously violent terroristic campaign 
of this regime, okay. If an end to that can be brought about 
diplomatically, I am 110 percent in favor of that.
    Mr. Scott. Ambassador, I apologize. We only get 5 minutes.
    If I could move though. Assad is a bad guy. Gaddafi was a 
bad guy but the U.S. made a decision to take Gaddafi out but 
not secure his weapons. And I think serious questions remain 
about where his weapons are throughout that whole region of the 
world now because we did not secure the weapons. And my 
question again gets back to, if Assad goes, what happens to the 
chemical stockpiles? And aren't they more likely to end up in 
the hands of Hezbollah? And while Assad has used chemical 
weapons, certainly some of the people that are trying to get 
those weapons would use them--they are not going to sit on 
them. They are going to use them in a much broader and, I would 
say, immediately after they get those weapons systems. And they 
will hit Israel, and they will hit our other allies with them. 
So how do we secure the chemical weapons after Assad is gone?
    Mr. Abrams. Could I just jump in and say, in the case of 
Libya, he had nonconventional weapons. He had a nuclear program 
which we did secure.
    Mr. Scott. We secured it first.
    Mr. Abrams. First. So that prior to that sort of last act--
at that point, you were talking about conventional weapons only 
but you were not talking about nuclear, chemical, or 
biological.
    Mr. Scott. That is right. And that makes this more complex.
    Mr. Abrams. It does.
    Mr. Scott. We secured them first.
    Mr. Abrams. The weapons were there. I would say, I think if 
Assad starts to move those weapons to Hezbollah, I think we see 
Israeli action, whether we like it or not.
    Mr. Scott. Sure.
    Mr. Abrams. If the regime falls, then I think that is the 
question that, like Fred Hof, I think the Americans, 
Jordanians, and Israelis and maybe the Turks have been talking 
about now for about a year, who does what to secure those 
weapons in case of anarchy?
    Mr. Scott. My point is somebody has got to put boots on the 
ground. And I want to make sure that it is the United States or 
our allies that are taking possession of those chemical 
weapons, to destroy them, not somebody who is going to turn 
around and use them against those very allies that we are there 
to protect.
    Mr. Chairman, I yield the remainder of my time. Thank you 
for your testimony.
    Mr. Conaway. Thank you. Mr. Garamendi from California for 5 
minutes.
    Mr. Garamendi. Thank you. I have I guess a legal question. 
Do air strikes amount to an act of war? Ambassador.
    Mr. Hof. Yes, I would say they do.
    Mr. Garamendi. Very good. The Constitution says that then 
the U.S. Congress must authorize those strikes.
    Secondly, this area is fraught with many schisms--
religious, tribal, and the like. There has been very little 
discussion here at this table about the Shi'a-Sunni schism, 
about the Alawites, the Kurds, even Christians. And I think we 
really need to take that into account as we try to figure out 
what to do here. One of our colleagues at an earlier hearing on 
this said, is it America's role to be the executors of the 
defunct British Empire? Well, that is my question to you 
gentlemen and lady. Is that what we are really doing here? Are 
we trying to keep together something that the British put 
together essentially a century ago?
    Ms. Yacoubian. I will take an initial stab at that. I mean 
I think there are certainly concerns that with Syria, we are 
seeing potentially the unraveling of the Sykes-Picot agreement 
that organized the 20th century post-World War I, post-Ottoman 
Levant. And I think that would have very significant 
repercussions for stability in the region. So I view it more as 
a question of stability or, by contrast, the destabilizing 
impact of Syria's current conflict.
    For me, I think one issue that we haven't talked much about 
beyond the question of the Sunni-Shi'a divide, which is 
significant and I think you are now seeing as a result of Syria 
a zone of sectarian conflict that stretches from the 
Mediterranean to beyond Baghdad, in particular the Sunni-Shi'a 
dimensions of it. I also think we need to think very seriously 
about the disposition of the Christian minority in the Levant 
and in the Arab world more broadly who are feeling increasingly 
under threat.
    Mr. Garamendi. Now that you are thinking about it, what are 
your thoughts?
    Ms. Yacoubian. Well, my thoughts are I think that we need 
to look for a Syria--and again, unfortunately, I think the 
Syrian opposition could and should do much more to attract 
members of the Syrian minority, the Christian minority in 
particular, as well as the Alawites. They, I think, have not 
really created a vision of a post-Assad Syria in which 
minorities would feel that they would not only survive but 
thrive.
    Mr. Garamendi. Thank you. Ambassador.
    Mr. Hof. I think, Congressman, there are plenty of 
Christians, Kurds, and even Alawites in the Syrian opposition. 
I think that opposition has said the right things about the 
future of minorities in Syria, about the need for a Syria in 
which Syrian citizenship trumps all other forms of political 
identification.
    Mr. Garamendi. And this would be about as successful as our 
previous effort in Egypt.
    Mr. Abrams, your thoughts on this.
    Mr. Abrams. I would refer to something I said before. It is 
a 74 percent Sunni country. It is, therefore, natural that it 
would be ruled by Sunnis, we would hope with all of the usual 
guarantees for human rights protections for those who are not 
part of that group. The only way you are going to ever rule 
that country by an Alawite or Shi'a group is by force. That is 
the only way it is going to be done henceforth. That is really 
the only way it was done under the Assads, father and son.
    Mr. Garamendi. Just another question in the last moment. 
Refugee support.
    Is it appropriate for the United States to provide 
significantly more support to Turkey, Jordan, and perhaps 
Lebanon with regard to refugees? Should we be doing that?
    Ms. Yacoubian. We are the largest provider of humanitarian 
assistance. I think the role the U.S. could play at this point 
is perhaps to play more of a role to encourage in particular 
our Gulf allies who have significant resources at hand to 
provide more.
    Mr. Garamendi. In other words, we have done enough. 
Ambassador.
    Mr. Hof. The big problem that still faces us, Congressman, 
is inside Syria where the regime blocks the United Nations from 
reaching rebel-controlled areas.
    Mr. Garamendi. Thank you.
    Mr. Abrams. I agree with the idea of getting the Gulf 
allies to do more. You have authorized an awful lot of money.
    Mr. Garamendi. Final point. I got 2 seconds. And for the 
record, should the United States be putting pressure on Qatar 
and others in the Gulf to cool it? Or increase? Could you 
provide that for the record?
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Conaway. The gentleman's time has expired.
    Mr. Bridenstine from Oklahoma for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. Mr. Abrams, I 
appreciate your testimony. I appreciate the testimony of 
everybody here.
    I do have a concern. I think you are greatly overestimating 
the effectiveness of a 1-day air strike option. And I will say 
that. I am a Navy pilot. I flew Operation Southern Watch in 
Iraq. I flew Operation Shock and Awe in Iraq. That was the most 
effective probably war effort in American history, and it took 
2 weeks in order to have the desired effects of getting our 
troops all the way to Baghdad and getting us in a position to 
win. The statue of Saddam came down. You mentioned that it was 
an overestimate of 700 sorties in order to take out the air 
defense systems of Syria. I was just going to ask, what do you 
think would be an appropriate number of sorties to take out the 
air defenses of Syria?
    Mr. Abrams. Mr. Bridenstine, I would say that is one of the 
reasons that I don't favor a no-fly zone because you may well 
have to do that. Where I think that is an exaggeration is that 
if you were doing this the way the Israelis have done it, why 
do you need to take out the air defense systems? You are doing 
this from outside Syria. You are using, presumably, cruise 
missiles as well as air-to-ground missiles.
    Mr. Bridenstine. But it goes to desired effects. The 
desired effect, according to you, is to severely degrade the 
capacity of Assad to use air assets and air bases.
    Mr. Abrams. Right.
    Mr. Bridenstine. One-day strikes without first preempting 
the air defense systems, I just don't think that is a realistic 
scenario. And as far as air defenses, I haven't looked at the 
Syrian order of battle as far as air defenses go. But I imagine 
they have a Russian system possibly that might have, you know, 
eight nodes, four radars, four missile defense batteries all 
distributed and networked. I mean, we are talking about a very 
large strike package to eliminate that one system. The reality 
is, 700 sorties is very realistic to degrade their air defense 
systems.
    Mr. Abrams. I don't dispute that. My question is, what can 
you achieve if you don't go into Syria and, therefore, require 
that?
    Mr. Bridenstine. And let me just follow up for a second.
    Let's say we do that 1-day air strikes, and let's say the 
desired effects are there, which I am very skeptical of.
    Mr. Abrams. Right.
    Mr. Bridenstine. And I say that with all due respect.
    But let's say we did that. The next question is, what is 
the response from the Russians? Does that mean they are going 
to go home? Does that mean they are not going to provide any 
more weapons? Does that mean they are not going to provide any 
more support? Or does it mean they are going to escalate? And I 
would argue that if they know that our strategy is a 1-day air 
strike, then they are, indeed, going to escalate, knowing for 
sure that we would de-escalate. And I am not saying that we 
would de-escalate. But I go back to what Mr. Turner said 
earlier. We have a problem with leadership here in the United 
States. And if the Russians believe that their escalation will 
warrant our de-escalation, then it is in their best interest to 
continue to escalate. And I guess what I would ask you is, what 
would be your assessment as to our response once Russia 
escalates?
    Mr. Abrams. Well, on the latter point, I think escalation 
would only be additional arms sales to Syria. But as Fred said, 
that depends to some extent on what is left of the airpower 
infrastructure in Syria whether they can do that.
    The Russians have not really responded, for example, to 
Israeli air strikes. Presumably they would want to sell more to 
Syria, and they like getting paid for it. But I want to go 
back. I think the questions you have asked can be answered best 
by the Pentagon. That is, suppose you were told you may not go 
into Syria. You have got to do it, in a sense, from border 
areas, and you can use cruise missiles. What can you achieve?
    In informal conversations I have had with some people in 
the American military, they have suggested they could achieve a 
lot. That is not the official position of the Pentagon. And I 
think you are going to need to push very hard to get answers to 
those questions. But I think it would be worth doing so because 
in a sense, you are saying I am speculating, and you are right. 
And I am speculating because the Pentagon has never really 
given us the answers to this. They don't want to but they 
should be pressured to do so.
    Mr. Bridenstine. Roger that. I yield back.
    Mr. Conaway. The gentleman yields back. Ms. Shea-Porter for 
5 minutes.
    Ms. Shea-Porter. Thank you.
    Mr. Abrams, I was looking up some of your comments in 
previous conflicts. And you had stated in one of your articles 
that--and I am going to quote, ``In Lebanon, the administration 
has cooperated with the Saudi Arabian Government, which is 
Sunni, in clandestine operations that are intended to weaken 
Hezbollah, the Shi'a organization that is backed by Iran. The 
U.S. has also taken part in clandestine operations aimed at 
Iran and its ally Syria. A byproduct of these activities has 
been the bolstering of Sunni extremist groups that espouse a 
militant vision of Islam and are hostile to America and 
sympathetic to Al Qaeda.''
    Do we really know what we are doing?
    Mr. Abrams. As I read about some of the things that are 
happening in Syria, I think that is a very fair question. But 
if we don't know what we are doing here in Syria, which is now 
we are in the third year, it is really an indictment of, to 
some extent, the administration, to some extent, frankly, the 
leadership of the CIA [Central Intelligence Agency]. That is, 
if in the third year we can't distinguish who are jihadis and 
who are Syrian nationalists with whom we might wish to work, 
why is that? How is it really possible that we are 3 years--or 
in the third year into this and we don't know? It seems to me 
that is either a failure of policy or it is a failure of 
carrying out the policy by CIA. You know, I just don't 
understand how it is possible that with 3 years of work we 
would not know the answers.
    Ms. Shea-Porter. Well, it seems to me that at one point we 
are worried about Shi'a and at the next point we are worried 
about the Sunnis, and we just seem to flip them. And the word 
that we always use to describe the guys who we are against at 
the moment are the ``extremists.'' So my question to you is, 
aren't they all fairly extremist when they are out there 
fighting and killing one another? I know we have all heard of 
some pretty gruesome stories coming from the rebels, the ones 
that were initially portrayed to us as those who were going to 
save Syria.
    And so my worry here--and I think we should all be 
concerned about this--is that as they look at us and try to 
figure out where we are and that region tries to figure out 
where we are, we are not really clear exactly ourselves. So to 
step into a conflict--as heartbreaking as it is and as 
devastating as it is. And I have a family friend who is 
actually missing there in Syria. So as heartbreaking as all 
this is, I don't think we are really--you know, to bring in any 
kind of weaponry or to bring in any kind of force right now, we 
don't understand the consequences. And by reading your words 
then and looking now, I am concerned that in 3 years we will be 
writing something different.
    So I would like to open that up. Would you like to comment? 
I see you nodding down there.
    Ms. Yacoubian. Well, I very much share your concerns. And I 
think that is what I elucidated in my written testimony as 
well, that I think we need to be humble about how complicated 
things are in Syria. It is a situation that is evolving very 
quickly. We have very few, if any, assets on the ground. But I 
also want to just underscore one of the points you made which I 
take to heart. And that is the use of the term ``extremist'' 
and what it means to qualify a particular group as extremists. 
Typically in the past or in the context of Sunni extremism, we 
use it when we talk about jihadists, those that are affiliated 
with Al Qaeda. But as you rightly point out, there is a 
documented instance of a pretty horrific atrocity being 
committed by someone with the Farouq Brigade which is 
considered a brigade that is--and I don't like to use the term 
``moderate'' either--more moderate. I think when one begins to 
understand the dynamics at play in Syria, the depth of 
sectarian hatred, the term ``extremist'' becomes a bit blurry.
    In my mind, he certainly, by committing an act of 
cannibalism, committed an atrocity that is extraordinarily 
extreme. And I don't think we would want to be supporting or 
sending arms to such a group either. So I would simply 
underscore your point.
    Ms. Shea-Porter. And it is an awful, awful position, but I 
am struck by the silence of the world at large and wondering if 
they are showing good judgment, better judgment, worse 
judgment, but I would just say that we shouldn't race in when 
we are not exactly certain about what the consequences will be.
    Mr. Abrams. I would only just reiterate, but this didn't 
start 2 weeks ago, it started more than 2 years ago. If our 
intelligence agencies cannot really identify which group is 
which, I think that is a remarkable intelligence failure.
    Ms. Shea-Porter. Thank you. I yield back.
    Mr. Conaway. Mr. Nugent from Florida for 5 minutes.
    Mr. Nugent. Mr. Chairman, I appreciate that, I appreciate 
this panel. The recurring theme, I think, particularly as you 
talk about this started over 770 days ago, I don't think the 
options have gotten any better. I agree with you that I don't 
believe that our intel is very actionable in regards to, you 
know, we are concerned about chemical weapons falling into the 
wrong hands. I am just not certain who those wrong hands are. 
You know, we talk about the Assad regime and Hezbollah, but 
when you start talking about 75 percent of the population is 
Sunni, and we heard testimony that whether it is extremist or 
moderate, I am not so sure what moderate means in the 
vernacular of what we are talking about. So I guess I am at a 
quagmire in regards to, you know, what are we doing. I mean, I 
understand the stated idea is to have Assad go, but I haven't 
heard a clear response as to who the heck is going to replace 
him and how is that going to affect our friends in the region. 
Right now they have an issue as it relates to, you know, people 
coming over their borders and trying to secure and trying to 
feed and trying to take care of and keep unrest down because of 
what that brings, but that might be minor compared to the 
issues that we could be unleashing upon them if, and like once 
I said, who is the right folks who are going to have control 
over chemical weapons? Can anybody help me understand who the 
right folks are?
    Mr. Abrams. Can I just make one little stab at that? 
Certainly the right folks are not international terrorists. 
That is to say----
    Mr. Nugent. Absolutely.
    Mr. Abrams [continuing]. People connected to Al Qaeda or 
jihadis from around the world. I mean, that in a sense, that is 
the easy part of the answer. The harder part of the answer is 
distinguishing among Syrian groups, which are the ones with 
whom we might wish to cooperate and which are the ones that we 
would never wish to cooperate with and which we would try to 
keep out of power in Syria.
    Mr. Nugent. But do we actually have the control to try to 
keep someone out of power in Syria?
    Mr. Abrams. All we can do, I think, is strengthen the 
people who we would like to see stronger. We can't really 
prevent--certainly some of our Gulf allies we can try to 
influence, but we can't prevent private citizens from pouring 
money into groups that we wish that they wouldn't help. So it 
seems to me all we can do is to say, well, these are some 
groups that look good to us, that look better to us, we would 
like them to be stronger today and as part of the fight over 
the post-Assad Syria, and we haven't really been doing much of 
that.
    Mr. Nugent. Do any of you think that--you know, I have 
heard you mention about, you know, projecting some air power, 
whether it is standoff or whatever to strike, and I guess to 
punish the Assad regime because you are really not going to 
probably have a dramatic effect on his ability to inflict 
serious pain on those, but there are those that want us to send 
additional arms or heavy weapons. Do any of you subscribe to 
the idea that that is going to be the way out? Or does that 
create additional problems?
    Mr. Hof. Congressman, I think the choice before us right 
now in the face of a very significant intervention on the part 
of Iran and Hezbollah is whether or not we are just going to 
stand back and witness, you know, the military defeat of people 
who we have, indeed, gotten to know quite well over the last 
couple of years. I don't think that anybody is going to make 
the argument that providing weaponry to vetted Syrian rebels is 
going to be the decisive gesture that wins the conflict in 
Syria. The goal here, I think, is a good deal more modest. It 
is to stabilize a situation on the ground which, if not 
stabilized, could conceivably lead to the worst of all possible 
outcomes, and that would be a military victory on the part of a 
regime that is responsible for upwards of 100,000 deaths 
already.
    Mr. Nugent. One last thing. So the more involved we get, 
the stronger the motivation is for, I believe, Iran and 
Hezbollah and Russia to ramp it up because for the same reasons 
we don't want to lose, they don't want to lose, and I will 
leave it at that.
    I yield back the balance of my time.
    Mr. Conaway. Thank the gentleman.
    Mr. Smith.
    Mr. Smith. Just quickly, and I am going to follow up in a 
moment on that point because that is what I wanted to ask about 
a little bit. One thing we haven't mentioned throughout this 
whole hearing, and just for the record should be, is if we were 
to decide to do anything, even a, you know, more limited 
strike, the DOD [Department of Defense] has said they would 
need a supplemental, they would need Congress basically to vote 
for the money to pay for it. That is a rather significant 
impediment to getting there. I just thought it was worth 
pointing out for the record.
    Then following up on the point about, you know, we have 
heard all along that, you know, well, if we let this happen, it 
reduces our influence because we look weak, and there is 
nothing worse in the world apparently than looking weak. But 
the question that I have is over the course of the last 12 
years now in Iraq, in Afghanistan, in Libya we invested 
certainly in the case of the first two an enormous amount of 
money, well over 6,000 lives between Iraq and Afghanistan. I 
confess I haven't looked recently at the number of wounded, but 
it is pushing close to 100,000, trillions of dollars, and went 
all in, okay? Took out three regimes. On that very basic level, 
unquestionably we won, you know. We took out a regime to 
establish the fact basically, you know, if it is important to 
us, we are going to put the resources in, and we are going to 
do this, which is kind of part of the argument for why we can't 
stand back and watch Assad. At the end of that process, do we 
have that type of influence in those parts of the world? Did 
it, in fact, enhance our credibility? The tone of my voice, you 
know, suggests my answer to that question. No. You know, 6,000 
lives, 100,000 wounded, a trillion dollars, all right? And it 
did not increase our credibility one lick. In fact, in many, 
many minds in that part of the world, it did the exact 
opposite. It made them once again resent us trying to mess in 
their part of the world.
    So even if we invested the resources, even if we could, 
quote, win and actually take out Assad, I completely reject the 
premise that somehow that is the path to having this part of 
the world bow down before our wishes, and there is an enormous, 
enormous cost to this ridiculous philosophy that, you know, 
once a conflict has started you have to put everything into it 
to make sure you win because otherwise you will look weak, you 
know, otherwise your influence will go down. Have we learned 
nothing over the course of the last 12 years from our three 
efforts where we went all in and at the end of it, it didn't 
come out with us being feared and having that influence. The 
world is vastly more complex than that, and I guess if there is 
one thing I hope from Syria and everything else is that we 
begin to get the message out there in the world, particularly 
in the Middle East, that the U.S. doesn't control it because at 
this point if something bad happens there they blame us for it. 
If there is some way to sort of ramp back the expectations and 
the ability of the United States of America to reach into this 
region of the world and fix everything for good, or for ill for 
that matter, that is something that I think we ought to do. So 
all this talk about what we have to do something because 
otherwise people will think we don't have influence doesn't 
just miss the point, I think it is dangerous, and I will give 
you a moment to respond to that.
    Mr. Abrams. Well, just my brief response. If that is the 
view of the United States, it is--becomes the view, it is a 
misfortune that the President said Assad must go and then said 
there is a red line on chemical weapons because you shouldn't 
say those things if you don't mean them. The President has said 
he doesn't bluff. He shouldn't bluff, no President should 
bluff. So that puts us in a very unfortunate position because 
the President has said some other things like I will prevent 
Iran from getting nuclear weapons, and you can't keep saying 
those things if you don't actually mean them.
    Mr. Smith. Yield back.
    Mr. Conaway. Thank you. One quick one on the impact on 
Israel and its continued safety, particularly in the Golan 
Heights and others. Assume that this thing just continues to 
muddle along, can you give us your perspective of what you 
believe the impact will have on Israel and its issues?
    Mr. Abrams. Well, I can start. I think they will take care 
of themselves on the question of arms transfers. I think the 
greatest concern from their point of view is the stability of 
Jordan and what kind of regime ends up being in power in Syria, 
and if what you have is a regime that is essentially a cat's 
paw now for Hezbollah and Iran, then that I think is dangerous 
for the whole region.
    Israel's security depends on two things--one, their ability 
to defend themselves, but, two, their alliance with the United 
States. So if the perception in the region is that the United 
States is withdrawing, is less active, is unwilling, for 
example, to take on Iran, maybe unwilling to prevent Iran from 
becoming a nuclear weapon state, that that will affect their 
security.
    Mr. Conaway. Ambassador Hof.
    Mr. Hof. I would just add, Mr. Chairman, that, you know, 
from the Israeli point of view, I think the key near-term 
problem is, indeed, as Mr. Abrams said, the security of the 
Hashemite Kingdom of Jordan in the Syria context. Beyond that, 
you know, I suspect the Israelis are evaluating the position of 
the United States, the attitude of the United States, the 
leadership of the United States in the context of the one issue 
that totally dominates Israeli politics these days, and that is 
Iran and what the United States would eventually bring to the 
table in that context.
    Mr. Conaway. Right. Ms. Yacoubian, any comments?
    Ms. Yacoubian. I have nothing to add. Thank you.
    Mr. Conaway. All right. Thank you. Anything quickly on 
the--should we read too much or too little into the 
assassination of one of the Free Syrian Army's lead generals, 
Hamami, by the jihadists, is that one-off or is that something 
that we think we will see more of that kind of internal 
violence within the opposition groups?
    Mr. Hof. I expect, Mr. Chairman, we are going to see more 
of it, and I think one thing to keep in mind here, the presence 
of jihadist groups in Syria is a direct product of the tactics 
the regime has used against its opponents from the beginning, 
and the presence of jihadist elements in Syria is a gift that 
keeps on giving to the Assad regime, and in its ability to try 
to take control of a narrative, in its ability to try to 
convince us that the only choice that is out there is the Assad 
regime or a group of people engaging in cannibalism. This will 
be that regime's ultimate victory if they are able to sell that 
narrative.
    Mr. Conaway. Ms. Yacoubian, do you have a comment?
    Ms. Yacoubian. Yes, if I could just add, and it is not a 
one-off. We have had violence already taking place between 
elements of those groups affiliated with Al Qaeda and elements 
of the Free Syrian Army. I would only add, I think, 
unfortunately it heralds perhaps a second far more dangerous 
phase of the conflict in Syria, which is one in which you have 
armed groups fighting each other to try and define this 
country. You are seeing increasingly civilians chafing under 
the strictures of fairly, fairly extreme Islamic rule in 
certain parts of the country where the regime has receded. So 
unfortunately I think that it is something to be very wary of 
and a concern going forward.
    Mr. Conaway. Well, thank you very much for your comments 
today. Not a lot of pretty picture over there, but as the 
photographer said, if you want a pretty picture, you have got 
to bring me a prettier face. So thank you all very much, and 
this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             July 17, 2013

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 17, 2013

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 17, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    Mr. Abrams. I believe our intelligence agencies are in touch with a 
wide variety of groups, as are friendly and cooperative agencies of 
other governments. Presumably we are looking for individuals who are, 
first of all, Syrian rather than foreign, and who have no known 
connection to AQ or any group related to it. And we would be looking 
for effectiveness in the current fighting: good leadership, skilled use 
of whatever arms they have, ability to recruit. [See page 18.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 17, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The U.N. envoy to Iraq told the U.N. Security Council 
yesterday that ``Iraqi armed groups have an increasingly active 
presence in Syria'' and that the conflict in Syria was spreading to 
Iraq, as Iraqi groups reportedly take up arms against each other in 
Syria. Iraq just had its bloodiest four months in 5 years, with nearly 
3,000 people killed and over 7,000 injured. Coupled with Hezbollah's 
strong support of the Assad regime and the spike in violence in Lebanon 
tied to Syrian involvement, this has all the signs of a dangerous 
regionalization of the Syrian civil war. How much further might this 
spread without further aid or intervention by the U.S. and its allies? 
Does it still make sense to think of this as a Syrian conflict? If the 
Syrian war ended tomorrow, how much of this conflict would persist in 
other venues, such as sectarian conflict in Iraq or Lebanon--in other 
words, is Syria now a pressure valve for other simmering regional 
conflicts?
    Mr. Abrams. Syria's civil war is now a proxy war, due to the 
introduction of Iranian and Hezbollah troops, and due to the massive 
refugee flows it is now a source of regional instability. In my view, 
the remaining questions are how long it will go on and who will win. If 
Assad survives due to Iranian help, Iran and Hezbollah will have 
defeated the United States, EU, and our Arab allies and power 
relationships in the entire region will have changed. Syria is in my 
view less a pressure valve for other conflicts than a cause for 
exacerbating them--and a means for Iran and Hezbollah to diminish the 
influence of the United States in the entire region.
    Mr. Langevin. I share concerns that have been expressed about aid, 
particularly lethal aid, being directed to some of the more extremist 
elements of the Syrian rebel groups. Is the United States doing enough 
to coordinate with other aid-donating countries to dry up such aid and 
focus efforts on less extreme elements, and if not, what more can and 
should be done?
    Mr. Abrams. I don't believe we can coordinate effectively with 
others if we are not in this game. Why should they take our advice? If 
we want to influence who gets aid, as we should, we will have to start 
providing aid ourselves. Then we'll be in a good position to know more, 
and to influence whom our allies are assisting.
    Mr. Langevin. What are the United States and partner countries, 
particularly those with significant refugee populations such as Jordan 
and Turkey, doing to combat the spread of radicalism within the refugee 
camps? As these camps grow larger and more established, is there a need 
to provide more robust efforts, and what might these look like?
    Mr. Abrams. Both governments are trying to police the camps, using 
combinations of border controls on who gets in, police in the camps, 
intelligence work, and military patrols near the camps. I hope and 
assume we are in close discussions with both governments about the 
security challenges they face and how we might help. Intelligence 
sharing and financial aid to their military and police agencies would 
seem to be helpful. But fundamentally we must rely on them to protect 
themselves and let us know when help is needed.
    Mr. Langevin. I am deeply concerned that the spillover of both 
refugees and violence into Lebanon could further destabilize that 
country, particularly as the full effects of Hezbollah's overt support 
of the Assad government lead to increased sectarian tensions. Beyond 
addressing the conflict inside the borders of Syria, is there more that 
the U.S. and its partners can do to prevent destabilization of the 
Lebanese government, or is it now inextricably tied to the Syrian 
conflict? Can Hezbollah and the Assad regime be decoupled, or is 
Hezbollah now in too deep to change course? Can you explain the impacts 
of Hezbollah's decision to back Assad on its standing within the 
region?
    Mr. Abrams. Hezbollah has cast its lot with Assad, presumably at 
the call of Iran but in its own interests as well. It is already paying 
a price in the region and inside Lebanon: once seen as a bold opponent 
of Israel and popular for this reason among Sunnis, Hezbollah is now 
seen as a Shiite group willing to sacrifice Sunnis, and indeed its own 
country, for Shia group interests and Iran. Hezbollah and the Assad 
regime will be decoupled now in only one way: the demise of the Assad 
regime. For now, while war continues in Syria, instability in Lebanon 
is guaranteed and unavoidable. There isn't much we can do in Lebanon to 
change this. For example, the Lebanese Army is refusing to police the 
border with Syria or to challenge Hezbollah, so increasing our aid to 
it does not seem to me an effective route.
    Mr. Langevin. What might a successful political settlement in Syria 
look like, and how has that changed since the confirmation of the Assad 
regime's use of chemical weapons?
    Mr. Abrams. A successful political settlement can't be conjured out 
of thin air, and must reflect the balance on the ground. So if we want 
a successful outcome, the rebels must be winning militarily. It might 
then be possible to negotiate for a new transitional government that 
represents all Syrian population groups and gives real guarantees to 
prevent violence against the Alawite community. All this is much harder 
now, as time has passed and there has been massive loss of life at the 
hands of the Alawite regime and its regular and irregular forces. The 
use of chemical weapons has the same impact, evoking the desire for 
revenge.
    Mr. Langevin. Historically, how successful has the U.S. been in 
using the provision of military assistance to empower moderate rebel 
groups, and what are the prospects for using such aid to increase U.S. 
influence among the Syrian opposition groups in particular?
    Mr. Abrams. We certainly got great influence with the contras in 
Nicaragua, and I would suggest in Afghanistan too, with the Northern 
Alliance. When aid is being provided by other governments and groups 
and we provide little, our influence will naturally be limited. I do 
not suggest that any group will become a tool of American policy and 
nothing more, but provision of support will mean we start to build 
relationships, know whom we are dealing with, know whom to back with 
more help, and give them reason to listen to us.
    Mr. Langevin. General Martin E. Dempsey, the chairman of the Joint 
Chiefs of Staff, has recently stated that the central strategy for 
Syria is ``capacity-building'' to help prevent violence within Syria 
from spreading to its neighbors. He specifically mentioned that ``The 
U.S. will leave some Patriot missile batteries and some F-16 Fighting 
Falcon aircraft in Jordan and is working with its Iraqi counterparts, 
the Lebanese armed forces, and Turkey through NATO'' to ensure that 
they're prepared to account for the potential spillover effects. Do you 
agree with this approach?
    Mr. Abrams. No, I do not. I believe American passivity regarding 
Syria is extremely dangerous. Gen. Dempsey would leave the Iranian and 
Hezbollah expeditionary forces in Syria to defeat the rebels and change 
the entire power balance in the Middle East. Our friends and allies are 
already wondering why Iranian adventurism and even hegemony appears to 
be acceptable to the United States.
    Mr. Langevin. The U.N. envoy to Iraq told the U.N. Security Council 
yesterday that ``Iraqi armed groups have an increasingly active 
presence in Syria'' and that the conflict in Syria was spreading to 
Iraq, as Iraqi groups reportedly take up arms against each other in 
Syria. Iraq just had its bloodiest four months in 5 years, with nearly 
3,000 people killed and over 7,000 injured. Coupled with Hezbollah's 
strong support of the Assad regime and the spike in violence in Lebanon 
tied to Syrian involvement, this has all the signs of a dangerous 
regionalization of the Syrian civil war. How much further might this 
spread without further aid or intervention by the U.S. and its allies? 
Does it still make sense to think of this as a Syrian conflict? If the 
Syrian war ended tomorrow, how much of this conflict would persist in 
other venues, such as sectarian conflict in Iraq or Lebanon--in other 
words, is Syria now a pressure valve for other simmering regional 
conflicts?
    Mr. Hof. What began as a civil conflict in Syria between peaceful 
demonstrators and a regime that responded with deadly violence quickly 
became a conflict with not only regional, but international 
implications. Foreign fighters from all over the world are now flowing 
into Syria, while the conflict's spillover effects on Lebanon, Jordan, 
Turkey, Iraq, and other neighbors are becoming dire. Syria is both 
inflaming sectarian tensions across the region and acting as a theatre 
where long-standing animosities in the Middle East are playing out.
    It is likely that the regional effects of the Syria crisis will 
outlast the conflict itself. Resettlement of millions of refugees who 
have fled to neighboring states, for example, will undoubtedly be a 
contentious and perhaps dangerous process. Resentment between the Sunni 
majority in the Middle East and various minorities (Shia, Alawite, 
Christian, Druze, etc.) will fester regardless of whether an 
internationally-supported negotiated political solution is reached in 
Syria.
    These disastrous effects underscore the need for an end to the 
violence in Syria, but U.S. military intervention is not a panacea. It 
is crucial that the United States have realistic goals in approaching 
this dilemma. U.S. military action could destroy or significantly 
degrade the Assad regime's artillery, air, and missile capabilities in 
order to slow the massive civilian slaughter in Syria and stem the 
flood of refugees into neighboring countries. These measures may have 
other positive effects as well, such as changing the overall combat 
momentum on the ground. Yet such effects should not be assumed. The 
goal would be to mitigate the effects of the Assad regime's survival 
strategy on the neighbors and on the region as a whole.
    Mr. Langevin. I share concerns that have been expressed about aid, 
particularly lethal aid, being directed to some of the more extremist 
elements of the Syrian rebel groups. Is the United States doing enough 
to coordinate with other aid-donating countries to dry up such aid and 
focus efforts on less extreme elements, and if not, what more can and 
should be done?
    Mr. Hof. Who gets arms in Syria and from whom is important. The 
United States, its key allies (UK, France, Turkey), and others (Qatar, 
Saudi Arabia) must try to insure that weaponry going into Syria reaches 
armed groups committed politically to a Syria in which citizenship 
reigns supreme over ethnicity, sect, gender, and all other ways in 
which people can be divided politically. The United States, in 
particular, should not be shy about working closely with Turkey to 
master weapons logistics and end-use. Most importantly, to be credible 
with Syrians and regional actors in this role, the United States will 
have to become directly involved in arming units now affiliated with 
the opposition Supreme Military Council; a process that may well be 
underway
    The Chief of the Supreme Military Council, General Salim Idris, has 
made clear his determination to see to it that the right people get the 
right arms and equipment. He will need the full support of the United 
States in this endeavor. It will not be enough for the United States to 
supply lethal assistance of its own. It, with the cooperation of Turkey 
and Jordan, must be in charge of the weapons supply chain. Only in this 
way can the risk of arms going to wrong people be minimized. 
Realistically, however, the risk can never be totally eliminated: no 
more in Syria today than in occupied France during World War II.
    Mr. Langevin. What are the United States and partner countries, 
particularly those with significant refugee populations such as Jordan 
and Turkey, doing to combat the spread of radicalism within the refugee 
camps? As these camps grow larger and more established, is there a need 
to provide more robust efforts, and what might these look like?
    Mr. Hof. The United States should continue to provide resources to 
non-governmental organizations and the United Nations for humanitarian 
aid and security for refugees in order (among other things) to deter 
and counter political radicalism in refugee camps. Episodes in official 
refugee camps involving recruitment of child soldiers, sexual violence, 
and exploitation for labor are particularly alarming, as they create 
dangerous breeding grounds for radicalism if allowed to persist and 
grow. Support of the Jordanian, Lebanese, and Turkish governments and 
their security forces is also important as they attempt to uproot these 
human rights violations.
    As to what the United States and partner countries are actually 
doing to combat the spread of radicalism in refugee camps, it is a 
question better put to serving officials.
    Mr. Langevin. I am deeply concerned that the spillover of both 
refugees and violence into Lebanon could further destabilize that 
country, particularly as the full effects of Hezbollah's overt support 
of the Assad government lead to increased sectarian tensions. Beyond 
addressing the conflict inside the borders of Syria, is there more that 
the U.S. and its partners can do to prevent destabilization of the 
Lebanese government, or is it now inextricably tied to the Syrian 
conflict? Can Hezbollah and the Assad regime be decoupled, or is 
Hezbollah now in too deep to change course? Can you explain the impacts 
of Hezbollah's decision to back Assad on its standing within the 
region?
    Mr. Hof. Lebanon's stability is suffering as a result of the 
conflict in Syria, due in no small part to the historical, political, 
and demographic linkages between the two countries. The duration and 
outcome of the ongoing war in Syria will undoubtedly have implications 
for Lebanon's domestic balance of power and political incentive 
structures.
    However, Lebanon's ability to withstand crises that will inevitably 
come its way depends upon the strength of its national institutions. To 
this end, the United States should continue to support the Lebanese 
Armed Forces and encourage its role as a neutral arbiter in domestic 
feuds, stress the need for a formal political process in Lebanon 
including the holding of elections, and continue to finance 
humanitarian relief efforts to help the Lebanese government cope with 
the influx of Syrian refugees.
    Hezbollah's choice to participate directly in the conflict on the 
side of the Syrian regime indicates that its relationship with the 
Assad regime, and more importantly the Islamic Republic of Iran, is of 
more strategic importance to it than the role it has built for itself 
in Lebanese domestic politics. It is unlikely at this point to decouple 
with the Assad regime, as it has demonstrated itself to be an actor 
with regional considerations that trump its domestic agenda. However, 
it is difficult to predict whether the party's decision-making process 
will change if the Assad regime suffers decisive military defeat in 
Syria.
    Without a doubt, Hezbollah's decision to participate militarily in 
Syria is having a negative effect on its reputation both inside Lebanon 
and regionally. Hezbollah has, in effect, seceded from the Lebanese 
political system to intervene in Syria at Iran's behest. Many Lebanese, 
including Shia constituents, are questioning the party's judgment, 
demanding to know why such a sacrifice is being made for a corrupt 
Syrian regime. The link between Hezbollah's leadership and Iran is 
unbreakable. Only if the Iranian-Assad regime link is broken can 
Hezbollah and the regime be decoupled.
    Mr. Langevin. What might a successful political settlement in Syria 
look like, and how has that changed since the confirmation of the Assad 
regime's use of chemical weapons?
    Mr. Hof. A successful political settlement in Syria would follow 
the roadmap specified in the June 30, 2012 Final Communique of the 
Action Group on Syria, convened in Geneva by former U.N. and Arab 
League Special Representative Kofi Annan. The Final Communique, 
accepted by the Permanent Five members of the U.N. Security Council, 
envisions a ``transitional governing body'' being created by 
opposition-government negotiations on the basis of mutual consent--
i.e., mutual veto (thereby ensuring that figures viewed as unacceptable 
by each side would not serve). This governing body, a national unity 
government perhaps, would receive full executive powers from those now 
exercising them. Although the Final Communique did not mention the name 
``Assad,'' it was understood by all that the mutual consent process 
would render him and his regime ineligible for any future role in the 
governance of Syria without requiring his resignation or departure as 
preconditions for the negotiations themselves. Therefore, the Assad 
regime's use of chemical weapons does not alter the diplomatic 
framework of negotiations.
    The advantage of a political settlement employing the Geneva model 
would be that it would keep in place large segments of the civilian and 
security bureaucracy, something that could facilitate post-conflict 
security measures, refugee resettlement and humanitarian aid. Indeed, 
serving members of the current and past government--though not members 
of the family-based regime--might continue to serve in a national unity 
government. Such a scenario would be reassuring to minorities, whose 
status in Syria has been shaken by the Assad regime's overtly sectarian 
survival strategy.
    Mr. Langevin. Historically, how successful has the U.S. been in 
using the provision of military assistance to empower moderate rebel 
groups, and what are the prospects for using such aid to increase U.S. 
influence among the Syrian opposition groups in particular?
    Mr. Hof. It is difficult to identify historical models roughly 
analogous to the complexities of Syria. There have been cases (El 
Salvador, Afghanistan) where the U.S. provision of arms produced 
desired, if (in the case of Afghanistan) transient political 
objectives. Still, the lessons learned from mistakes in providing 
military assistance to groups that did not share interests with the 
United States (in a lasting way) should not be forgotten. Yet they need 
not paralyze U.S. decision-making in a conflict that involves national 
interests of the United States and its allies. General Salim Idriss, 
Commander of the Free Syrian Army, has shown himself to be a capable, 
moderate, and pragmatic interlocutor of the United States; a person who 
merits U.S. support. And although there can be no realistic guarantee 
that all weapons will at all times reach their intended recipients, the 
United States has invested considerable time and resources into the 
vetting of Syria's armed opposition to minimize the likelihood of this 
happening. The provision of military assistance is perhaps the only way 
that the United States can both boost its relationship with the 
moderate Syrian opposition, and elevate the position of those groups at 
the expense of two parties steeped in terrorism: the regime and 
extremist militias attracted to the Syrian conflict by the regime's 
sectarian survival strategy
    Mr. Langevin. General Martin E. Dempsey, the chairman of the Joint 
Chiefs of Staff, has recently stated that the central strategy for 
Syria is ``capacity-building'' to help prevent violence within Syria 
from spreading to its neighbors. He specifically mentioned that ``The 
U.S. will leave some Patriot missile batteries and some F-16 Fighting 
Falcon aircraft in Jordan and is working with its Iraqi counterparts, 
the Lebanese armed forces, and Turkey through NATO'' to ensure that 
they're prepared to account for the potential spillover effects. Do you 
agree with this approach?
    Mr. Hof. Three broad objectives might usefully frame U.S. efforts 
with regard to Syria: (1) enhancing the security and stability of 
regional allies and friends being inundated with refugees fleeing the 
Assad regime's terror campaign of massed fires (artillery and air) on 
civilian population centers beyond its control, as well as massacres in 
places it can reach on the ground; (2) removing from power a family-
based regime whose desire to survive and the means it employs 
constitute a palpable threat to regional peace; and (3) replacing that 
regime with a national unity government dedicated to reform, 
reconstruction, reconciliation, and rule of law, all in the context of 
non-sectarian citizenship and protection of vulnerable populations. 
None of these objectives implies the desirability of American 
unilateralism or the inevitable advisability of specific means, 
military or otherwise, to achieve them.
    Nevertheless U.S. strategy must, by definition, aim to accomplish 
specific objectives: either the three cited above or others approved by 
the president. President Obama has cited the effects of the Syrian 
crisis on Syria's neighbors (including allies and friends of the U.S.) 
as involving serious U.S. interests. These effects are being caused by 
the Assad regime's habit of shelling and bombing populated areas it 
does not control. One approach to the Assad regime's terror campaign of 
artillery, aerial, and missile assaults on heavily populated areas 
beyond its control is to continue to pour money and other resources 
into the countries absorbing the resultant refugee flows and other 
forms of back-blast. Another approach is to press Russia diplomatically 
to oblige its client to stop the mass terror campaign. Should diplomacy 
fail, a third approach could be to undertake a focused aerial campaign 
of limited duration aimed at destroying or significantly degrading the 
ability of the regime to terrorize the Syrian populace with artillery, 
military aircraft, and missiles; a campaign that would feature the use 
of stand-off weaponry and would require buy-in, at a minimum, from 
Turkey and Jordan: two countries that would benefit greatly from such 
an intervention.
    As for the steps articulated by General Dempsey, they are useful on 
their own merit. They do not, however, rise to the level of ``central 
strategy.''
    Mr. Langevin. The U.N. envoy to Iraq told the U.N. Security Council 
yesterday that ``Iraqi armed groups have an increasingly active 
presence in Syria'' and that the conflict in Syria was spreading to 
Iraq, as Iraqi groups reportedly take up arms against each other in 
Syria. Iraq just had its bloodiest four months in 5 years, with nearly 
3,000 people killed and over 7,000 injured. Coupled with Hezbollah's 
strong support of the Assad regime and the spike in violence in Lebanon 
tied to Syrian involvement, this has all the signs of a dangerous 
regionalization of the Syrian civil war. How much further might this 
spread without further aid or intervention by the U.S. and its allies? 
Does it still make sense to think of this as a Syrian conflict? If the 
Syrian war ended tomorrow, how much of this conflict would persist in 
other venues, such as sectarian conflict in Iraq or Lebanon--in other 
words, is Syria now a pressure valve for other simmering regional 
conflicts?
    Ms. Yacoubian. The regional spillover repercussions of the Syrian 
conflict are significant and growing. It is no longer makes sense to 
consider the Syrian uprising as a purely Syrian conflict. It has 
morphed into a sectarian civil war with significant spillover into 
Syria's neighbors. The sectarian aspect of Syrian spillover is 
particularly concerning, given the attendant instability and violence. 
Sectarian spillover has been most pronounced in Iraq and Lebanon, two 
countries with pre-existing sectarian tensions. To a far lesser extent, 
Turkey has also experience a degree of sectarian instability with its 
minority Alavi population, provoked by the Syrian conflict. Going 
forward, primary concerns regarding sectarian spillover will continue 
to focus on Iraq and Lebanon. Iraq's security situation continued to 
deteriorate through July and August continues to spiral downward. More 
than 1,000 Iraqis were killed in sectarian violence in July alone. 
Lebanon is witnessing from mounting sectarian violence that has stoked 
pre-existing tensions. Lebanon's population is deeply polarized over 
the question of Syria, with Sunnis largely supporting the rebels and 
Shia standing behind the Syrian regime. As both sides have intensified 
their involvement in Syria, the fight has increasingly come to Lebanon. 
In particular, the Lebanese Shiite militant group Hezbollah's decision 
to send fighters to Syria in support of the regime has provoked 
increasingly brazen attacks on Hezbollah's stronghold, likely by Sunni 
radicals. An August 15 car bombing in the Beirut's Shiite-dominated 
southern suburbs killed 24 people, making it the most serious bombing 
since Lebanon's civil war. Even if the Syrian conflict ended tomorrow, 
it is likely that sectarian violence in Iraq and Lebanon would persist. 
The region is now in the throes of a powerful sectarian dynamic, 
supercharged by the violence unleashed by the increasingly tumultuous 
Arab transitions.
    Mr. Langevin. I share concerns that have been expressed about aid, 
particularly lethal aid, being directed to some of the more extremist 
elements of the Syrian rebel groups. Is the United States doing enough 
to coordinate with other aid-donating countries to dry up such aid and 
focus efforts on less extreme elements, and if not, what more can and 
should be done?
    Ms. Yacoubian. The United States is attempting to streamline and 
manage the arming process in Syria, however with very limited, if any, 
success. While the U.S. government has worked assiduously behind the 
scenes to help unify the Syrian opposition, both political and 
military, it has repeatedly run into significant roadblocks. The U.S. 
has worked with key Gulf countries, namely Saudi Arabia and Qatar, 
which provide the bulk of military assistance. The appointment of 
General Salim Idriss as Chief of Staff of the Supreme Military Council 
(SMC), the armed element of the Syrian opposition, was intended to 
spearhead these efforts at coordinating and directing military aid to 
``moderate'' elements within the armed opposition. However, General 
Idriss's influence with an increasingly factionalized and extreme armed 
opposition has remained somewhat limited. Moreover, while Qatar has 
reportedly professed a desire to work more closely with the United 
States, it is not clear the Qataris are willing to implement the 
stringent controls necessary to insure that arms do not get into the 
hands of al-Qaeda-aligned jihadists. While Saudi Arabia is strongly 
opposed to the establishment of a jihadist enclave in Syria, Qatar 
appears to be less concerned by this potential scenario. Moreover, 
beyond official Gulf support for the Syrian rebels, private donors, 
particularly from Kuwait, constitute another key source of military 
support. Private donations to the rebels are extremely difficult to 
track and virtually impossible to control.
    Mr. Langevin. What are the United States and partner countries, 
particularly those with significant refugee populations such as Jordan 
and Turkey, doing to combat the spread of radicalism within the refugee 
camps? As these camps grow larger and more established, is there a need 
to provide more robust efforts, and what might these look like?
    Ms. Yacoubian. I am not familiar with what efforts are being 
undertaken in the refugee camps to combat radicalism. Turkey hosts 
fewer refugees than Jordan and boasts more modernized facilities. 
Turkey's well-developed infrastructure and financial well-being also 
provide greater assurances that the camps are well-managed and not 
overly-crowded. Jordan, by contrast, is increasingly overwhelmed by 
mounting refugee flows. A recent U.N. report noted that security is a 
major concern in the Zaatari refugee camp--Jordan's largest camp with 
130,000 refugees--where both organized crime networks and armed 
opposition groups operate in the camp. Given the high proportion of 
youth in the camp, jihadist recruitment is an ongoing concern. As the 
refugee flows out of Syria continue to mount, it is increasingly 
important to insure that there are adequate resources to meet the 
growing needs of both the refugee population and their host countries. 
In particular, to stave off radicalization and recruitment of teenagers 
and young men in the camps, it is essential that education efforts as 
well as after-school programming are enhanced. In addition, it will be 
critical to insure that the camps are provided with adequate security.
    http://www.unhcr.org/51f7d9919.html
    Mr. Langevin. I am deeply concerned that the spillover of both 
refugees and violence into Lebanon could further destabilize that 
country, particularly as the full effects of Hezbollah's overt support 
of the Assad government lead to increased sectarian tensions. Beyond 
addressing the conflict inside the borders of Syria, is there more that 
the U.S. and its partners can do to prevent destabilization of the 
Lebanese government, or is it now inextricably tied to the Syrian 
conflict? Can Hezbollah and the Assad regime be decoupled, or is 
Hezbollah now in too deep to change course? Can you explain the impacts 
of Hezbollah's decision to back Assad on its standing within the 
region?
    Ms. Yacoubian. Lebanon's fate has long been intertwined with that 
of Syria--well before the Arab uprisings--and the two countries will 
continue to impact each other. Given that Syria's conflict is project 
to endure for months, if not years, Lebanon must contend with the 
challenges of a ``new normal''--a Syria that has descended into a 
bloody, sectarian civil war. Lebanon's challenges are further 
heightened by Hezbollah's deepening involvement in Syria. Hezbollah's 
``all-in'' approach to supporting the Syrian regime has resulted in 
increasing blowback into Lebanon, further exacerbating sectarian 
tensions with an increasingly radicalized Sunni community. Hezbollah 
has made clear that its support for the Assad regime is unwavering, so 
attempts to ``peel'' Hezbollah away from Syria are not likely to be 
successful.
    Hezbollah's decision to support the Assad regime at all costs has 
constituted a critical strategic choice from which there is likely no 
return. Hezbollah's policies of sending fighters and providing training 
and other forms of assistance to the Assad regime in an increasingly 
bloody sectarian civil war has essentially transformed the organization 
from a broad-based ``resistance'' movement with wide popular support 
across the Arab world to a sectarian militia. As a result, Hezbollah 
has provoked the ire of a Lebanon's increasingly radicalized Sunni 
community. Hezbollah strongholds in Beirut, the Bekaa and south Lebanon 
are increasingly becoming an arena of confrontation between Sunni and 
Shia. Most notably, two car bombings within the span of one month in 
Beirut's southern suburbs are emblematic of a new era of violence in 
Lebanon, directed specifically at Hezbollah. While Hezbollah will 
maintain its position as the most powerful military force in Lebanon, 
it will increasingly come under threat from such asymmetric attacks.
    Mr. Langevin. What might a successful political settlement in Syria 
look like, and how has that changed since the confirmation of the Assad 
regime's use of chemical weapons?
    Ms. Yacoubian. At this point, it is extremely difficult to envision 
a successful political settlement in Syria in the short term. Too much 
blood has been spilled and important opportunities for diplomacy and 
negotiation have been lost. That said, at some point, the Syrian 
conflict will necessarily reach a point where the parties to the 
conflict are exhausted and ready to negotiate. The conflict still seems 
far from that critical point. However, ultimately, the solution to 
Syria's conflict will be political rather than military. A successful 
political settlement in Syria would maintain Syria's cohesion, rather 
than allowing for the break up of the country into sectarian enclaves. 
Syria would be a multi-confessional democracy with a market economy in 
which minorities feel safe and a part of a new post-Assad Syria. The 
confirmation of the Assad regime's use of chemical weapons, albeit on a 
small scale, only underscores the extent to which the regime will go to 
maintain its hold on power. This in turn suggests that the conflict 
will endure for some time before there is any hope for political 
negotiations. Unfortunately, the longer the Syrian conflict lasts, the 
dimmer the prospects are for a successful political settlement.
    Mr. Langevin. Historically, how successful has the U.S. been in 
using the provision of military assistance to empower moderate rebel 
groups, and what are the prospects for using such aid to increase U.S. 
influence among the Syrian opposition groups in particular?
    Ms. Yacoubian. In general, it is difficult to find examples of how 
U.S. military assistance has been successfully used to empower moderate 
rebel groups. History is, however, replete with examples of negative 
``blowback'' from the U.S. provision of arms to rebel or insurgent 
groups. In the Middle East, the most notable example is U.S. assistance 
to the Afghan mujahideen in the war against the Soviet Union in 
Afghanistan. Unfortunately, these very weapons became the fuel for 
radical Islamist groups which were the precursor to Al-Qaeda. It is my 
sense that the provision of military assistance to Syrian opposition 
groups will only increase U.S. influence in limited instances and for 
bounded periods of time. Ultimately, groups will always act in their 
perceived self interest, whether or not it aligns with their military 
benefactors.
    Mr. Langevin. General Martin E. Dempsey, the chairman of the Joint 
Chiefs of Staff, has recently stated that the central strategy for 
Syria is ``capacity-building'' to help prevent violence within Syria 
from spreading to its neighbors. He specifically mentioned that ``The 
U.S. will leave some Patriot missile batteries and some F-16 Fighting 
Falcon aircraft in Jordan and is working with its Iraqi counterparts, 
the Lebanese armed forces, and Turkey through NATO'' to ensure that 
they're prepared to account for the potential spillover effects. Do you 
agree with this approach?
    Ms. Yacoubian. I agree with the approach to Syria outlined by 
General Dempsey. Our ability to influence the battle raging on the 
ground inside Syria is necessarily limited since we are wisely not 
willing to commit to U.S. ``boots on the ground'' or more significant 
levels of direct or indirect military intervention. Given these 
inherent limitations, it is essential for the United States to employ 
whatever resources it can leverage to help insulate our allies in the 
region from Syria's spillover to the extent possible.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Is the U.S. exercising influence over both the Saudi 
and Qatari regimes to prevent them from arming elements of the 
opposition that threaten the interests of the U.S. and our allies and 
that further lead to instability in Syria? If not, why not?
    Mr. Abrams. In my view, we have likely had conversations with those 
governments and conveyed our views. The problem is that we are not 
players in this game, so our views don't count for very much. One of 
the benefits of actually arming rebel forces is that we would greater 
influence over both those groups and others who are also arming them; 
in that case, the American call for close coordination would be seen as 
natural. Today we are seen as people sitting on the sidelines trying to 
tell others what the rules are.
    Mr. Garamendi. Please quantify the refugee assistance requirements 
of both Turkey and Jordan and indicate the current and future 
assistance that should come from the U.S. to meet these requirements.
    Mr. Abrams. There are now 1.7 million Syrian refugees registered 
with UNHCR, and UNHCR says the financial need is for $3 billion, of 
which $1.125 billion has yet been received. The United States and then 
Kuwait are the most generous funders in the cases of both Jordan and 
Turkey, and there are roughly half a million refugees in each country. 
It is difficult to quantify financial needs because future refugee 
flows are unpredictable.
    Mr. Garamendi. Is the U.S. exercising influence over both the Saudi 
and Qatari regimes to prevent them from arming elements of the 
opposition that threaten the interests of the U.S. and our allies and 
that further lead to instability in Syria? If not, why not?
    Mr. Hof. This is, of course, a question better put to serving 
officials. Suffice it to say, however, that the search for clients 
within the Syrian opposition by certain Gulf states and the support for 
jihadist elements inside Syria from mainly private Gulf sources have 
had an entirely deleterious effect on the course of the Syrian 
revolution and have played completely into the hands of the Assad 
regime. There have been strong indications in the press that Secretary 
of State Kerry is trying to ensure that all external military 
assistance--weapons, equipment, training, and intelligence--go through 
General Salim Idris and the Supreme Military Council. There are 
likewise strong indications that this is the policy and practice to be 
pursued by key Gulf states. Yet this will require constant supervision 
and verification.
    Mr. Garamendi. Please quantify the refugee assistance requirements 
of both Turkey and Jordan and indicate the current and future 
assistance that should come from the U.S. to meet these requirements.
    Mr. Hof. This is an excellent question, though one better put to 
serving U.S. government officials.
    On August 7, President Obama announced more than $195 million in 
additional USG humanitarian assistance to help feed, shelter, and 
provide medical care for children, women, and men affected by the 
ongoing conflict in Syria, bringing the total amount of U.S. 
humanitarian assistance for the crisis to more than $1 billion. This 
funding supports relief efforts both inside Syria and in neighboring 
countries. For a more detailed breakdown of U.S. assistance, visit the 
State Department's official website: http://www.usaid.gov/crisis/syria
    However, the United Nations has repeatedly warned that the growing 
needs of Syrian refugees and the countries hosting them are far 
outpacing international commitments to address the crisis. The United 
States and its allies should therefore continue to pledge humanitarian 
relief to Syria and, perhaps more importantly, find alternative methods 
of delivery (cross-border, for example) that more effectively reach 
intended recipients. Given that the United Nations still considers the 
Assad regime to be Syria's government, and given that the so-called 
government can (and does) deny permission for United Nations 
humanitarian aid workers to operate in liberated areas of Syria, 
funding emphasis should also be placed on non-governmental 
organizations not constrained by the rules applying to the United 
Nations.
    Mr. Garamendi. Is the U.S. exercising influence over both the Saudi 
and Qatari regimes to prevent them from arming elements of the 
opposition that threaten the interests of the U.S. and our allies and 
that further lead to instability in Syria? If not, why not?
    Ms. Yacoubian. In the midst of continuing, if not deepening, 
turmoil across the region, the United States continues to try to 
exercise influence over both the Saudi and Qatari regimes to prevent 
them from arming jihadists and other extremists that threaten Western 
interests. Our success to date has been mixed at best. Saudi Arabia has 
determined that its own strategic interests would be threatened by the 
establishment of a jihadist stronghold in Syria. As a result, the 
Saudis appear to be working to insure against arms getting into the 
hands of jihadists. Qatar, on the other hand, has been more willing to 
allow arms to flow freely into Syria, including to radical jihadist 
elements. To the extent, countries share U.S. interests in preventing 
arms from going to jihadists, therefore, the U.S. has been relatively 
more successful in exercising influence. However, with countries whose 
agendas differ from that of the United States, U.S. influence is far 
less notable. In large part, wealthy Gulf nations have far greater 
resources at their disposal than the United States and the United 
States' ability to influence their policies vis-a-vis arming the 
extremists remains somewhat limited.
    Mr. Garamendi. Please quantify the refugee assistance requirements 
of both Turkey and Jordan and indicate the current and future 
assistance that should come from the U.S. to meet these requirements.
    Ms. Yacoubian. Of the two countries, Jordan has been far more 
stretched given the large number of refugees it hosts (UNHCR notes that 
512,000 have registered, while the Jordanian government puts the number 
of Syrian refugees in Jordan at 1.3 million.) Jordan estimates that 
since the beginning of the Syrian crisis, the cost of hosting Syrian 
refugees will be $1.68 billion by the end of 2013. Meanwhile, Turkey 
hosts about 490,000 refugees. Turkish authorities estimate that the 
cost of hosting these refugees [is] approaching $1 billion. As the 
largest single donor to humanitarian efforts in Syria, the United 
States has shouldered its fair share of the burden. At this point, it 
is incumbent on wealthy Gulf countries to provide greater financial 
assistance to the effort. Pledges of Gulf assistance totaling $1.5 
billion have not been fulfilled.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
